<html>
<title> - FROM STRATEGY TO IMPLEMENTATION: STRENGTHENING U.S.-PAKISTAN RELATIONS</title>
<body><pre>[Senate Hearing 111-184]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-184
 
 FROM STRATEGY TO IMPLEMENTATION: STRENGTHENING U.S.-PAKISTAN RELATIONS

=======================================================================


                                HEARING

                               before the

FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, FEDERAL SERVICES, 
                AND INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
51-790                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK PRYOR, Arkansas                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 JOHN McCAIN, Arizona
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
ROLAND W. BURRIS, Illinois

                    John Kilvington, Staff Director
               Velvet Johnson, Professional Staff Member
    Bryan Parker, Staff Director and General Counsel to the Minority
                   Deirdre G. Armstrong, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Carper...............................................     1
    Senator Akaka................................................    14
    Senator Levin................................................    16
    Senator Burris...............................................    19
Prepared statements:
    Senator Carper...............................................    47
    Senator Burris...............................................    50

                               WITNESSES
                         Tuesday, July 7, 2009

Hon. Mark Udall, a U.S. Senator from the State of Colorado.......     4
Paul W. Jones, Deputy Special Representative for Afghanistan and 
  Pakistan, and Deputy Assisant Secretary of State for South and 
  Central Asia, Office of the Special Representative for 
  Afghanistan and Pakistan, U.S. Department of State.............     7
Lisa Curtis, Senior Research Fellow, Asian Studies Center, The 
  Heritage Foundation............................................    25
Nicholas Schmidle, Fellow, New America Foundation................    27
Shuja Nawaz, Director, South Asia Center, The Atlantic Council...    29
Nathaniel Fick, Chief Executive Officer, Center for a New 
  American Security..............................................    32
Rolf Mowatt-Larssen, Senior Fellow, Belfer Center for Science and 
  International Affairs, John F. Kennedy School of Government, 
  Harvard University.............................................    34

                     Alphabetical List of Witnesses

Curtis, Lisa:
    Testimony....................................................    25
    Prepared statement...........................................    56
Fick, Nathaniel:
    Testimony....................................................    32
    Prepared statement...........................................    75
Jones, Paul W.:
    Testimony....................................................     7
    Prepared statement...........................................    51
Mowatt-Larssen, Rolf:
    Testimony....................................................    34
    Prepared statement...........................................    78
Nawaz, Shuja:
    Testimony....................................................    29
    Prepared statement...........................................    71
Schmidle, Nicholas:
    Testimony....................................................    27
    Prepared statement...........................................    66
Udall, Hon. Mark:
    Testimony....................................................     4

                                APPENDIX

Questions and Answers for the Record from:
    Mr. Jones....................................................    81
    Ms. Curtis...................................................    92
    Mr. Schmidle.................................................    96
    Mr. Nawaz....................................................    98
    Mr. Fick.....................................................   102
    Mr. Mowatt-Larssen...........................................   104


 FROM STRATEGY TO IMPLEMENTATION: STRENGTHENING U.S.-PAKISTAN RELATIONS

                              ----------                              


                         TUESDAY, JULY 7, 2009

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                              and International Security,  
                          of the Committee on Homeland Security    
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, Chairman of the Subcommittee, presiding.
    Present: Senators Carper, Levin, Akaka, and Burris.
    Also Present: Senator Mark Udall.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. The Subcommittee will come to order. I want 
to welcome a very good friend--Senator Udall from Colorado. 
Thank you very much for joining us. He and I were part of a 
congressional delegation about a month and a half ago that went 
to Afghanistan and Pakistan. We learned a lot and came back 
with a special interest in the issues we will be discussing 
today. So I very much want to welcome you today.
    I am going to start off with a statement, and we will be 
joined by some others of our colleagues. I would like for 
Senator Udall to stay for as long as his schedule permits, and 
we welcome him to participate with us as we go through 
statements.
    Before I begin, I really want to give my thanks to the men 
and women serving in the U.S. embassies in Pakistan and 
Afghanistan. We certainly want to give our thanks to the men 
and women serving in uniform, particularly in Afghanistan 
today. We are grateful for the sacrifice both on the civilian 
side and on the military side in that country.
    We were in both countries, Afghanistan and Pakistan, back 
in May. I can say with great confidence that our new Ambassador 
there, Karl Eikenberry, and his wife who has joined him there, 
and Ambassador Anne Patterson in Pakistan are very impressive 
people with a very highly effective staff. We commend them for 
their leadership, and all of our personnel that are serving 
there capably.
    An Islamic insurgency rages, as we know, in western 
Pakistan, and senior U.S. officials are concerned about the 
declining security situation and new vulnerabilities for 
Pakistan's growing nuclear arsenal, although I must say I am 
pleased, I think we are encouraged, by the way the Pakistan 
military has turned on the Taliban with the strong support of 
all the political parties of any consequence and the strong 
support of the voters and the electorate and the population of 
Pakistan.
    But the insurgency, particularly in Afghanistan but also in 
Pakistan, the political instability in that region, the 
devastating humanitarian crisis as a couple million people in 
Pakistan have been dislocated from their homes, and an 
intensely anti-American population threaten an already fragile 
Pakistani Government. These factors present unique challenges 
to the United States and the strategy of our President laid out 
in late March.
    In my view, the Administration has developed a strategy 
that addresses the region's concerns while understanding that 
the challenges of Afghanistan and Pakistan are indeed linked. 
This hearing will examine implementation of that new strategy.
    When we were leaving, Senator Udall and I were doing a 
press conference with our colleagues, and I was asked by one of 
the reporters, ``What is the exit strategy for the United 
States?'' And I said that the exit strategy is our new 
strategy, the new strategy outlined by the President in March. 
It has military components, training components, and civilian 
components, and we need to do all three.
    Our focus today will be on the hardest and most critical 
problem of the region, and that is Pakistan. Most national 
security experts agree that Pakistan is maybe the most 
dangerous country in the world today for one primary reason: 
Nowhere else in the world is there such a lethal combination of 
Islamic extremism, terrorist groups with global reach, nuclear 
proliferation, and nuclear weapons.
    In late March, President Obama said that Pakistan's lawless 
border region has become the most dangerous place in the world 
for Americans. Admiral Mike Mullen, the Chairman of our Joint 
Chiefs of Staff, has called the border region between Pakistan 
and Afghanistan ``the site of planning for the next attack'' on 
the United States.
    General David Petraeus, who oversees the wars in both Iraq 
and Afghanistan, said recently that Pakistan has become the 
``nerve center'' of al Qaeda's global operations, allowing it 
to reestablish its organizational structure, build stronger 
ties with offshoots in Iraq, Yemen, Somalia, North Africa, and 
in parts of Europe.
    Pakistani officials acknowledge that their country is 
facing perhaps the greatest threat since its creation in 1947: 
A growing virulent threat from al Qaeda, the Taliban, and other 
Islamic groups.
    In the months since our delegation was in Pakistan, the 
Pakistani military, as I mentioned earlier, has launched an 
offensive in the North-West Frontier Province, specifically in 
the Swat Valley, and in South Waziristan, an agency in the 
Federally Administered Tribal Areas (FATA).
    Many experts have been skeptical whether Pakistani 
officials understand the existential threat to their own 
country. But as I said earlier, an extraordinary thing has 
happened in the last month and a half. For the first time 
President Zardari, opposition leader Sharif, the Pakistani 
military, and more than 80 percent of Pakistanis view the 
Taliban and al Qaeda as a critical threat to Pakistan. Those 
numbers are almost double what they were about a year ago.
    I agree with Secretary Napolitano's recent statement from 
Pakistan that the Pakistani Government's crackdown on the 
Taliban has improved U.S. security. The Obama Administration 
has promised Pakistan $1.5 billion in aid for the next 5 years 
in humanitarian and economic assistance; and although the 
Senate unanimously passed the Kerry-Lugar bill that I 
cosponsored. The bill is now stuck in Congress with a list of 
conditions with which many Pakistanis are uncomfortable. This 
bill is both vital to the U.S. national security and to 
Pakistan's 175 million people, and I urge the conferees to send 
the President a bill to sign, and soon.
    Finally, it goes without saying that the safety and 
security of Pakistan's nuclear arsenal is of utmost importance 
to all of us. As the insurgency spreads in Pakistan, senior 
American officials are increasingly concerned about new 
vulnerabilities for Pakistan's nuclear weapons, including the 
potential for militants to insert sympathizers into 
laboratories or fuel production facilities or to seize a weapon 
in transport. Preventing Pakistan's nuclear weapons and 
technology from falling into the wrong hands should be, must 
be, the top priority for both of our countries.
    These facts lead to a series of urgent questions. Let me 
mention a couple of them.
    One, the Obama Administration has recognized that the 
United States needs a long-term comprehensive plan to address 
the terrorist threats in Pakistan. How is the implementation of 
the President's strategy proceeding?
    Two, there is a complex network of extremist groups 
operating in the lawless regions near the Afghanistan-Pakistan 
borders, including the Pakistani Taliban, the Afghan Taliban, 
al Qaeda, and other affiliated and sectarian groups. How should 
policymakers prioritize which of these groups to target? Who is 
reconcilable among them?
    Three, since September 11, 2001, the United States has 
allocated billions of dollars to non-military assistance 
programming in Afghanistan and Pakistan. What should our goal 
be for distribution of the Kerry-Lugar assistance? And what 
should the delivery mechanisms be?
    Four, what can our government do to address the problems 
caused by anti-American sentiment in Pakistan? Does the current 
humanitarian crisis present the United States with an 
opportunity in this regard? What additional actions might 
reverse widespread distrust of the United States among 
Pakistanis?
    Five, in the past the Pakistani Government and army have 
undertaken only sporadic militarized efforts punctuated by 
lulls when truce deals allowed the militants to regroup and 
grow stronger. How should we assess what now appears to be a 
fairly robust Pakistani effort to combat extremism inside their 
country? Are current military operations a sign of meaningful 
change in this pattern? We sure hope so.
    And, six, some analysts argue that the Pakistani military 
has been slow to reorient itself toward modern 
counterinsurgency planning. How does this affect U.S. regional 
interests? Has our military assistance to Pakistan sufficiently 
bolstered that country's counterterrorism capabilities?
    And, finally, what is the probability of al Qaeda and other 
terrorist groups acquiring a warhead or enough radioactive 
material to create a dirty bomb? What is the possibility of an 
insider threat at Pakistani nuclear facilities?
    Today, with these questions in mind, I would like for us to 
try to do the following: Assess the status of the 
implementation of President Obama's new strategy toward 
Pakistan; examine the complex set of threats from western 
Pakistan and eastern Afghanistan; discuss the most effective 
short-and long-term policy options regarding Pakistan; solicit 
ideas about how Congress can play a more robust role in the 
path forward, specifically in non-military assistance to 
Pakistan.
    If our national security is linked to the success, the 
security, and the stability of a democratic Pakistan, we have 
no choice but to engage in a smart, sustained, and long-term 
partnership. The United States needs and is finally on the path 
to achieving, a Pakistan-based policy as opposed to a leader- 
or government-based policy.
    Thanks again to our witnesses for taking this opportunity 
to talk with us today about the nature of the challenges before 
us and how best to address them.
    Before I introduce our first witness, I am going to call on 
my friend and colleague from Colorado, Senator Mark Udall.

 OPENING STATEMENT OF HON. MARK UDALL, A U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Udall. Thank you, Senator Carper, and good 
afternoon to you, Mr. Jones, and to this very interested and 
interesting audience, Mr. Chairman. I note a lot of young 
people here interested in policymaking, and clearly they are 
going to shoulder some of the challenges in the near and the 
far term as we work in very difficult but important settings to 
overcome the threat of extremism and violence and chaos.
    I want to thank the Chairman and Ranking Member McCain for 
inviting me to address the Subcommittee briefly today. I was 
very honored to be a part of Chairman Carper's congressional 
delegation trip to Afghanistan and Pakistan, and we have 
memories and experiences that will stay with me forever.
    I did want to share my impressions of the trip with you 
here today and with the broader Congress. As the Chairman 
mentioned, the purpose of our trip was to get an updated view 
of the U.S. military and civilian operations, particularly 
focusing on President Obama's new strategy, and we did get an 
updated view. I came away believing we have a window of 
opportunity to arrest deteriorating security conditions in both 
countries and to work with the civilian governments in both 
Afghanistan and Pakistan to achieve stability and security in 
the region, which I really think is our goal.
    Let me further add some specific ideas and impressions. I 
think I will probably, for the most part, echo the Chairman's 
comments, but perhaps I will also augment some of his insights.
    In Pakistan, our strategic challenge is different than it 
is in Afghanistan. We cannot allow extremists to destabilize 
this nuclear armed state that has the world's second largest 
Muslim population. By the estimation of many experts, the 
possibility that Islamic radicals could destabilize and 
undermine the Pakistani state has become, frankly, all too 
real. But we do not have troops on the ground in Pakistan, nor 
are Americans very popular. Mr. Chairman, a recent poll 
indicates that the new Administration is no more popular than 
the last, with 90 percent of the Pakistani population agreeing 
that the United States is trying to weaken the Muslim world.
    One difference between Pakistan and Afghanistan is that our 
leverage is much less in Pakistan than it is in Afghanistan, 
and, thus, our options are fewer. Yet there are a number of 
steps we can and we should take to improve our relationship 
with Pakistan, and in so doing, enhance our reputation and our 
influence in this critical part of the world.
    We can demonstrate an interest in a long-term strategic 
partnership with Pakistan, a relationship that goes beyond 
fighting a common enemy but assisting as well with police 
reform and training and sustainable economic development. There 
is no better demonstration of this than the recently passed 
Kerry-Lugar bill, which will invest in non-military projects 
that will directly benefit the Pakistani people and help 
build--and rebuild, frankly--trust and cooperation. We heard 
quite a bit about some of these opportunities from the business 
community and other leaders in Pakistan.
    We can also continue to provide accountable military 
assistance--underlining ``accountable''--to ensure that 
Pakistan's military and police have the training and the 
equipment that they need. And we should encourage India-
Pakistan rapprochement both to demonstrate our commitment to 
the region as well as to help the Pakistan people and 
government focus on the real and imminent threats.
    I was, in that regard, really encouraged to hear during our 
visit that the Pakistani people, the government, the business 
community, and the journalists we met with are very much 
concerned with the growing insurgency on their western border 
and less concerned than they have been about their eastern 
border with India. There is a much larger recognition that 
there is an existential threat posed by extremism to Pakistan 
itself, not just to these ungoverned areas on the western edges 
of Pakistan, and a sense that the civilian government really 
has to reassert itself in this perilous environment. Pakistan's 
recent military actions are an indication of this new 
commitment.
    Having said that, I still have concerns about the way 
forward. I am concerned that the Pakistani army lacks the will 
to sustain its fight against insurgents within its borders. The 
army has driven the enemy out of Swat, but unless it protects 
the area, the enemy could return for another day. It is not 
enough to clear; the Pakistani army also needs to hold and 
build. And I know Senator Carper and I are also very concerned 
about the 2.5 million Pakistanis who have been forced to flee 
their homes and the areas in which they live because of the 
fighting.
    Islamist groups are infiltrating the refugee camps, but at 
this point, the authorities in Pakistan will not allow American 
officials or planes to deliver aid because of anti-American 
sentiment and security risks. Pakistani Lieutenant General 
Ahmad, who heads up the Pakistani army's disaster management 
group, has said that the United States is seen as part of the 
problem. But if we cannot help deliver U.S. aid to the 
refugees, as we did in the 2005 earthquake in Kashmir, this is 
a tremendous lost opportunity for us. We are essentially 
competing with Islamist groups for the loyalty of these people, 
and we are losing, despite contributing more than any other 
country to the U.N. effort.
    So let me close by saying I believe the President's 
combined civil-military strategies are our best hope to turn 
the tide in Afghanistan and Pakistan, but we should not 
overestimate our abilities to rebuild broken states and 
transform entire regions of the world. Ensuring our security 
here at home and serving our interests abroad means that we 
need to be both tough and smart as we engage with our allies 
and adversaries.
    So, Mr. Chairman, thank you again for letting me have a 
chance to share my impressions in this important hearing. I am 
scheduled to preside on the Senate floor in about 15 minutes, 
but I am going to stay and listen to Mr. Jones before I am 
required to leave.
    One last comment. I see, again, so many young people here 
who obviously are very interested in foreign policy and how to 
build a tough and smart international security policy. I just 
had a chance to reread a book entitled ``Three Cups of Tea,'' 
and I would recommend it to all of you here as one of the ways 
forward. The author Greg Mortensen would be the first to tell 
you that his programs and his successes in northern Pakistan 
are not the only strategy that we ought to fund and implement. 
But it is a fascinating account of how to build societies in 
ways that let those societies then fend for themselves. So I 
recommend ``Three Cups of Tea'' to everybody here and, of 
course, to my fellow Senators as one of the ways forward.
    Thank you again.
    Senator Carper. Thank you so much. Thanks again for being 
here today and for your comments. I think we are going to have 
a partnership on these issues for a long time, and I look 
forward to that.
    Our first witness, panel one in its entirety, Paul Jones. 
Mr. Jones serves as both Deputy Special Representative for 
Afghanistan and Pakistan and Deputy Assistant Secretary of 
State for South and Central Asia at the U.S. Department of 
State. That is quite a title. He is a career member of the 
State Department's Senior Foreign Service, formerly served as 
Deputy Chief of Mission at the U.S. Embassy in Manila, 
Philippines; as a U.S. Representative to the Organization for 
Security and Cooperation in Europe, in Vienna, Austria; and as 
Deputy Chief of Mission at the U.S. Embassy in Macedonia. While 
working for the State Department, Mr. Jones was Director of the 
Office of Central Europe, responsible for the U.S. policy in 
the Balkans. There is a lot more I could add to that, but I am 
going to stop right there so we will have an opportunity to 
hear from you and our other witnesses today. We are honored and 
thankful for your service and very much pleased that you could 
be here today.
    Thanks so much. Welcome. Please begin.

 TESTIMONY OF PAUL W. JONES,\1\ DEPUTY SPECIAL REPRESENTATIVE 
FOR AFGHANISTAN AND PAKISTAN, AND DEPUTY ASSISTANT SECRETARY OF 
    STATE FOR SOUTH AND CENTRAL ASIA, OFFICE OF THE SPECIAL 
REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF 
                             STATE

    Mr. Jones. Mr. Chairman, thank you. Thank you so much, and, 
Senator Udall, a great honor to appear before both of you and 
your Subcommittee, Mr. Chairman. I really appreciate the 
opportunity.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jones appears in the Appendix on 
page 51.
---------------------------------------------------------------------------
    I want to bring greetings from Ambassador Holbrooke who is 
currently winding his way back from consultations in Egypt to 
further our outreach to key countries for our strategy in 
Afghanistan and Pakistan. But it is a great opportunity for us 
to explain a little bit of the strategy and get into a 
conversation, because we would really welcome your views. So I 
will be quite brief in my opening statement, and I look forward 
to your questions and your comments.
    Secretary Clinton and Special Representative Holbrooke are 
very much committed to working closely with Congress as we 
implement the President's new strategy in Afghanistan and 
Pakistan. We acknowledge and very much appreciate the deep 
interest and firsthand experience among Members of your 
Subcommittee.
    Since January 20, Special Representative Holbrooke has 
assembled a very diverse interagency team to implement this new 
strategy, leveraging the expertise of representatives from nine 
U.S. Government agencies as well as leading academics. Our 
early efforts have supported Pakistani efforts to enhance 
political and economic stability as well as Pakistani efforts 
to roll back the Taliban threat and respond to the need of the 
growing numbers of displaced persons.
    More specifically, the United States has, over the past 
couple of months, established regular cabinet- and summit-level 
trilateral consultations to build trust and cooperation between 
Afghan and Pakistani leaders. We have deepened relations with 
leading Pakistani politicians across the political spectrum. We 
have worked with Japan and Pakistan to organize a Pakistan 
Donors Conference in Tokyo in April of this year, resulting in 
$5.8 billion in pledges to assist Pakistan as it addresses 
significant macroeconomic challenges.
    We have helped rejuvenate Pakistan-Afghanistan transit 
trade negotiations, which have the potential to enhance 
economic opportunity in both countries. We have encouraged the 
first direct contacts in the context of these trilateral 
discussions between ministers of agriculture, interior, and 
finance of Pakistan and Afghanistan. And we have provided 
military assistance to support renewed Pakistani efforts to 
defeat insurgents, and we have led the international effort to 
mobilize relief for Pakistan's internally displaced persons.
    At the same time, Pakistan itself has taken a number of 
very important steps. Pakistan has resolved a political crisis 
in mid-March, resulting in the reinstatement of the Pakistani 
supreme court justice. Pakistan political leaders held an All-
Party Conference on May 19, which resulted in a declaration 
supporting military action against insurgents and extremists. 
Pakistan has conducted a sustained counterinsurgency operation 
with wide public support, and it has assisted about 2 million 
displaced persons under the civilian-military leadership of the 
same Pakistani officer who directed Pakistan's effective 
earthquake relief effort in 2005.
    In the coming months, we plan to enhance our support for 
Pakistani efforts to address significant economic and 
governance challenges. We deeply applaud the Senate's unanimous 
passage of the Enhanced Partnership with Pakistan Act, which 
authorizes $1.5 billion per year in non-military assistance for 
5 years. Final passage of this legislation will be a powerful 
demonstration of our long-term commitment to helping the 
Pakistani people and reinforce our desire for a long-term 
partnership based on common interests.
    It is vital that we help address the economic and social 
conditions that extremists exploit in western Pakistan with 
more and more consistent economic aid. Our assistance will 
support Pakistani efforts to hold and build in western Pakistan 
as part of its counterinsurgency efforts so extremists do not 
return to fill the vacuum once military operations have ended. 
But more than helping rebuild homes and businesses, we must 
also enhance bilateral and regional trade potential by 
encouraging foreign investment in vital sectors such as energy 
and by implementing Reconstruction Opportunity Zones to provide 
incentives for investment in critical regions by offering duty-
free imports to certain products made in the border regions.
    Legislation before the Senate today would establish 
Reconstruction Opportunity Zones in areas directly affected by 
the fighting and would boost confidence in economic 
opportunity, including for displaced persons who will be 
returning. The President called for passage of this ROZ 
legislation when he announced his new strategy on March 27, and 
again during the trilateral summit meetings with Presidents 
Zardari and Karzai on May 7. It is a critical aspect of our 
strategy to bring economic opportunity to what would otherwise 
be the heart of al Qaeda's safe haven, and it is vital for 
protecting our national interests.
    The challenges in Pakistan and Afghanistan are, of course, 
very complex, and we cannot expect results overnight. Signaling 
and demonstrating our long-term commitment to a true 
partnership is essential for our success. The Administration is 
committed to working closely with Members of this Subcommittee 
and Congress generally on every aspect of implementing the 
President's strategy.
    I thank you very much, Mr. Chairman, for this opportunity, 
and I welcome your questions and your comments.
    Senator Carper. Thank you so much for that statement and 
for the responses that we are about to receive.
    If you could just summarize for us briefly the 
Administration's changes in strategy for Pakistan. Just go back 
several months, rewind and pick it up right there.
    Mr. Jones. Thank you, Mr. Chairman. There are several 
aspects that I would highlight. One is the level of political 
engagement. We are presented with an opportunity of a new 
civilian democratically elected government in Pakistan, and as 
the Administration came in, very quickly we moved to engage the 
entire spectrum of civilian political leadership in addition to 
our ongoing conversations with the security sector and other 
sectors of society at both the summit and the cabinet level, 
and we have had a tremendous response from the Cabinet of the 
U.S. Government who are directly engaged with their 
counterparts in Pakistan and Afghanistan to raise the level of 
our dialogue.
    We have also put forward a plan and we are detailing it now 
in a series of assessments for how we would increase quite 
significantly our economic assistance to Pakistan, focusing 
more on people-to-people exchanges and efforts that have a real 
impact immediately for people on the ground.
    In particular, some things have changed since the strategy. 
Obviously, the development of the insurgency and the quite 
dramatic change, as you have highlighted, Mr. Chairman, in 
public opinion led to other challenges and opportunities that 
we have responded very quickly to in terms of assisting with 
displaced persons. But I would generally say that we are 
looking at increasing our engagement both in terms of 
assistance and in political activities, and also, as I had 
mentioned when speaking about Ambassador Holbrooke's travel, we 
are engaging at very serious and high levels with all of the 
many countries who have relationships and interests in Pakistan 
and Afghanistan in order to get us all sort of on the same page 
politically speaking; and complementing that, we are engaging 
in a new effort to try to raise the level of our donor 
coordination for these countries so that we can make better use 
of all international donor assistance.
    Senator Carper. When we were in Pakistan, I was struck--
even now--at the enduring distrust and concern that the 
Pakistani political leaders and military leaders still view 
India with. They have had a change of leadership in India as 
you know, maybe the strongest central government they have had 
there in a long time, and it seems to me and to those of us who 
were on our delegation trip that this was maybe a unique 
opportunity--hopefully not the only opportunity--for some kind 
of rapprochement between Pakistan and India, a chance to begin 
to ratchet down levels of distrust, to be able to refocus 
Pakistani military preparedness not on their eastern borders, 
but where the real problems lie with respect to the insurgency 
groups that are in the western part of the country.
    I was struck by the apparent reluctance of the Pakistani 
Government and military leaders to accept our help, direct or 
indirect, even with respect to helicopters and the need for 
mobility to go after the bad guys in the northwestern parts of 
the country. They have in Pakistan only a handful of 
helicopters that apparently are operable. I do not know if they 
are willing to accept more helicopters from us. I do not know 
if they are even willing to accept our support for parts and 
for training their maintainers to be able to extend more 
effectively their counterinsurgency operations.
    But we have been presented--and I think the Pakistani 
people have been presented--with a great opportunity here given 
the fact that the Taliban overplayed their hand in Pakistan, 
there has been a sort of uprising, popular uprising that has 
led to the military taking a very strong role and I think a 
very successful role thus far.
    But when you look at what we are trying to do to further 
bolster the Pakistani military hand in going after the bad 
guys, a real help here could be to go after once and for all 
this distrust--more than distrust between Pakistan and India, 
but this long-time focus almost to the exclusion of everything 
else on India. How do we move into this situation? If we cannot 
convince them to take our helicopters or our aid in making sure 
that the half-dozen or dozen helicopters they have will work, 
what can we do on the positive side with respect to ratcheting 
down the tension between Pakistan and India? Just lay that out 
for us if you would. Because to the extent that they spend less 
money and less time thinking about India and having to worry 
about that flank, that gives them more time and more resources 
to go after the people they really need to be going after.
    Mr. Jones. Thank you, Mr. Chairman. First of all, I need to 
state clearly for the record that Ambassador Holbrooke's 
mandate is for Afghanistan and Pakistan, and we treat India, 
which has been very interested in--obviously, as a major 
neighbor, has invited Ambassador Holbrooke to visit on each 
occasion that he has been in the region and continues to be 
very interested in the implementation of our strategy. But he 
does not have a specific mandate for the relationship between 
Pakistan and India. That is handled in other parts of our State 
Department.
    I think, as you suggest, there clearly is some recognition 
in the governments that they would like to open up more 
dialogue. There was a meeting recently between President 
Zardari and Prime Minister Singh.
    Senator Carper. Where did that occur? And I think there may 
be another opportunity down the road.
    Mr. Jones. Yes, that was in Yekaterinburg, Russia, on the 
margins of dual meetings. There was a summit of the Shanghai 
Cooperation Organization and what is called the BRIC--Brazil, 
Russia, India, China. There was a summit meeting there that 
presented an opportunity.
    I would like to comment about the other elements of your 
question. Clearly, Pakistan has laid out some very clear red 
lines in terms of the assistance that it would like to accept, 
and I think this goes to the heart of what you were discussing 
in terms of the distrust that has a lot of historical baggage 
in our relationship. But Pakistan actually has been welcoming 
helicopters and other hardware to support the counterinsurgency 
operations--we have made a huge priority in this Administration 
to support that request. We have delivered four MI-17 
helicopters to Pakistan just in the last few weeks. We have two 
more coming, I believe later this month, and a couple more 
behind that. It is not a helicopter that we use or stock, so it 
is not so easy to go around and try to identify and find the 
helicopters to assist Pakistan with. We have also gone out to 
countries around the world to see who else could help with 
helicopters that are in their inventory, and there are other 
ongoing efforts in that regard.
    But I think what we will see is, as we are able to 
demonstrate both in terms of our response to the humanitarian 
crisis and the assistance that Pakistan is open to receiving 
our consistency and commitment to supporting their efforts, I 
think we will see gradually greater openness, and that is, I 
think, how we overcome the distrust. But that will not be a 
short-term process, but it is an important one that we are 
embarked on. And I think really a key to this is the 
legislation that we have discussed, the commitment of not just 
$1.5 billion per year, but over a 5-year period of assistance, 
that I think will allay a lot of the concerns in the political 
class in Pakistan that we are there for short-term benefits 
rather than a long-term partnership.
    Senator Carper. Well, I do not mean to be critical of the 
priorities that the Pakistanis are setting for their own 
military. Just look at our own. We are going to be debating in 
the next week or two on the Senate floor the defense 
authorization bill, and we are going to be trying to determine 
whether or not if we are going to continue to buy weapons 
systems, build weapons systems, very expensive weapons systems, 
to fight last decade's wars instead of spending monies to fight 
this decade's and next decade's more likely 
counterinsurgencies.
    The F-22 is a perfectly good aircraft. We have been 
building them for years, flying them for years. I do not 
believe we have ever used one in combat. Now we are faced with 
a question of continuing to build more of them. We will see 
where that ends. But I am encouraged to hear that there is 
willingness to accept some helicopters, and maybe the 
willingness of some other countries to provide that kind of 
mobility.
    We are putting, as you know, 17,000 additional Marines and 
Army troops into Afghanistan. They will be aided by 150 
helicopters to go after the bad guys, especially in the 
southern part of that country. I think there are four new 
helicopters. That is good. Two more after that. Well, that is 
good as well. A hundred and fifty in Afghanistan just to help 
the 17,000 men and women that we are putting into that country.
    One last thing before I move off of this. We met at a 
wonderful lunch, and I think it was hosted by the governor of 
Lahore, and I recall sitting at a table with the former Foreign 
Minister from Pakistan, and he talked to us about back-channel 
negotiations with the Indians over a decade ago which he 
thought led very closely to some kind of rapprochement between 
Pakistan and India. We have learned of a similar kind of 
initiative maybe 2 or 3 years ago in that country--the same, 
again, trying to find some meeting of the minds between 
Pakistan and India. I would just urge us to use whatever 
influence that we have, direct or indirect, to move that along.
    I think it was in April 2008, GAO reported that the United 
States lacked the comprehensive plan encompassing all elements 
of national power. What progress has been made in developing 
such a plan for addressing the situation in Pakistan? How well 
are the various agencies coordinating their efforts in 
developing a comprehensive plan? And what interagency 
agreements, if any, have been reached?
    Mr. Jones. Thank you. I think to start with one element, 
Ambassador Holbrooke's team is, as I said, located in the State 
Department, but consists of representatives of nine U.S. 
Government agencies detailed out, selected by the member of 
Cabinet--the head of agency to represent in Ambassador 
Holbrooke's office. So we are not conducting this operation by 
an interagency committee but actually have a whole-of-
government approach nested under Ambassador Holbrooke to whom 
President Obama entrusted the implementation of the civilian 
aspect of the plan.
    In addition to that quite remarkable--in my experience, the 
first in my 23 years with the government--experience of such an 
interagency operation, we have a tremendous level of 
interagency coordination and cooperation. We have instituted a 
weekly meeting that we just had last night--it goes on for 
about an hour and a half--where Ambassador Holbrooke and 
General Lute from the National Security Council (NSC) chair--
and I co-chair in Ambassador Holbrooke's absence--of very 
senior members from a remarkable number of agencies, much more 
than the nine represented on our team, with a very open and 
quite remarkably free-flowing conversation.
    We discuss, for example, as just referenced, the visit of 
Secretary Napolitano, and the points that she was planning to 
make, we were talking about them in terms of how do we add into 
her points, how do we reinforce the message there, how do we 
make it part of our broader context. So there is that going on, 
which I think is really quite a remarkable effort, in my 
experience.
    Then, finally, I would note the civ-mil coordination. 
General Petraeus, entrusted with implementing the military 
aspects of the President's strategy, is in constant touch with 
our team, with Ambassador Holbrooke, and members of his team 
are in touch with ours. And our embassies, our missions in both 
countries are developing civ-mil implementation plans for the 
strategy that are quite detailed and expensive and bring in at 
the post level in our missions out there all the agencies 
required.
    So I submit that it is quite a remarkably successful 
interagency effort going on now, and I think we are drawing 
on--to cite one example, the U.S. Department of Agriculture is 
putting forth a remarkable increase in the number of people out 
in Afghanistan and looking at a strategy for Pakistan because 
these are two countries that depend hugely on agriculture. So 
we are bringing in agencies that were not so directly involved 
before and marrying them up with the agencies that we are----
    Senator Carper. Good. One last question, and then I am 
going to recognize Senator Akaka and then Senator Levin, and 
welcome to you both, gentlemen. Thank you both for joining us.
    I think it was Einstein who said in adversity lies 
opportunity. We have got the Pakistani military going after 
Taliban and other extremist militant outfits in the western 
part of the country. That is the good news. The bad news is we 
have seen a couple million people displaced from their homes. I 
am impressed by how many of those displaced people are 
literally taken into people's homes, as opposed to shuttling 
them off into refugee camps.
    But there is a great opportunity for us to help relocate 
from the Swat Valley and other places where people have been 
displaced, helping people get back to their homes, rebuild 
their homes, their communities, and get their lives back to 
something close to normal.
    I understand that there is a reluctance for the Pakistani 
Government to even accept U.S. aid that is clearly identified 
as from the United States; perhaps we need to work maybe 
through nongovernmental entities, NGOs, to provide that 
assistance.
    But having said that, to the extent that the Pakistani 
military has driven out the bad guys and gotten them on the 
run--we have a lot of people displaced--to the extent that we 
can go in and be seen, directly or indirectly, as helping to 
improve that situation, it is a great plus for us and obviously 
a great plus for the Pakistani people.
    Your thoughts, please? How is it going? What are we doing?
    Mr. Jones. Yes.
    Senator Carper. How successful are we being?
    Mr. Jones. Normally, in such humanitarian situations, most 
of our aid does go through the United Nations and 
nongovernmental organizations, and in this case it is no 
different. So we have pledged a total of $381 million, 
disbursed currently a little over $160 million, to assist the 
displaced people, some 2 million people.
    I think it is quite well known and recognized in Pakistan 
that we are the leader in that effort. You are quite right, 
some of these areas, in contrast to the earthquake situation, 
are still not secure. It is not a very safe situation for us to 
send out American personnel much beyond Peshawar. In fact, 
there are quite a number of threats right now. So we are 
somewhat limited by other factors as well.
    The Pakistani Government has said that they want to pay for 
the side that is their responsibility and, in fact, have 
disbursed an equivalent of about $380 per family to the 
displaced people so that they would have the opportunity on 
their own to live outside of their homes.
    As you mentioned, some 80-, 90-plus percent are living in 
people's homes, so it is not always the easiest place to access 
people. It is much better in homes, but there are fewer central 
points to provide assistance. But we believe the U.N. and NGOs 
have really spread out their assistance in a way that is 
helpful.
    I would say that, as you suggest, we do want the people of 
Pakistan to know that America is assisting. We also want the 
people of Pakistan to know that their own government is 
assisting. And I think that is coming across quite clearly and 
is a very important effort to counter the attempts by 
extremists to influence displaced persons. It is very important 
for the displaced persons to see that their own government is 
actually providing assistance. And I think that is in one 
respect why Pakistan is possessive about that effort, and they 
are doing, by all accounts, quite well at it.
    I was just speaking to a member of our team who recently 
came back from Pakistan who said, in contrast--because this 
gentleman served in Pakistan a couple of years ago. He said you 
just flip through the channels on TV or you hear of what people 
are talking about on the radio and we see it in the print 
media, and you see both public service ads and editorials that 
very much praise the role of the Pakistani military and the 
Pakistani Government in responding to this situation, the 
military in terms of the offensive against the insurgents and 
the government in terms of the assistance to people. And that I 
would say is also very important because that is what is going 
to keep people from being influenced by extremists who are 
seeking to take advantage of vulnerable people who are 
displaced. So we are very pleased with that.
    You are right. It is also important for people to see the 
American Government as playing its appropriate role in 
assisting, and I think that is coming along. But I think it is 
also important, as I say, that the Pakistani Government is 
rightly seen as being helpful to the citizens.
    Senator Carper. All right. Thanks, Mr. Jones.
    Mr. Jones. Thank you.
    Senator Carper. Senator Akaka, welcome. If you would like 
to make an opening statement, feel free. Senator Akaka, thank 
you.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing. The implementation of an 
effective policy toward Pakistan is a very significant and 
important national security priority.
    I just want to mention that there are two issues in 
particular that I want to highlight.
    First, if we pursue an engagement strategy with Pakistan to 
reduce the threat of terrorism and nuclear proliferation, we 
must be prepared for a long-term commitment. I am pleased that 
President Obama supports efforts to strengthen Pakistan's civil 
institutions and security. These efforts will help address the 
short-term and the long-term challenges facing Pakistan.
    Second, the United States should forge lasting, 
international partnerships to bring security and prosperity to 
both Pakistan and Afghanistan. We must listen to the needs of 
our partners as we define and refine the implementation of our 
strategies. History has shown us that nations working toward 
the same goals in a well-coordinated manner bring a greater 
likelihood of success.
    I am keenly interested in Pakistan. For me, it goes back to 
the year 2000 when I visited Pakistan, and at that time 
President Musharraf was in charge there. It started for me a 
good relationship with Pakistan.
    Mr. Chairman, this is my opening statement.
    Senator Carper. Fair enough. Would you like to go ahead and 
ask some questions?
    Senator Akaka. Yes. Thank you very much.
    Mr. Jones, Mr. Fick's written testimony--he is the CEO from 
the Center for a New American Security--states that the costs 
of the unmanned aerial vehicle air strikes inside Pakistan 
outweigh the benefits and these air strikes are, on balance, 
harmful to the U.S. and allied interests.
    What is your view on this issue? And, what steps should the 
United States take to reduce the potential loss of good will in 
Pakistan and Afghanistan if these air strikes continue?
    Mr. Jones. Senator, thank you so much. Thank you for the 
question. I would have to say on that particular subject I 
would need to defer speaking about that in any specific sense 
for a closed session, if you would understand that. I would say 
that a very important part of our strategy is to, with 
strategic communications, influence information as it is termed 
in various aspects.
    I think that in that area overall we are making some 
progress. We have plans to increase quite significantly our 
assistance to Pakistan in terms of helping it get its own 
information and its own information out in the tribal areas and 
among displaced persons, and we are working closely with 
international organizations and with the Government of Pakistan 
to try to help do that through various means of assistance in 
procuring local radios and helping with Pakistan public service 
announcements, things that will help people understand what 
actually are the goals of the Pakistani Government and the 
international community and how they are helping the country of 
Pakistan.
    Senator Akaka. Mr. Jones, in the President's strategy for 
Afghanistan and Pakistan, he stated that the United States will 
set clear metrics to measure progress and be accountable. I 
agree that metrics are important and that we need to focus on 
measuring effectiveness and not just effort. How are these 
metrics being designed and implemented?
    Mr. Jones. Yes, thank you for that. We have been working 
hard on metrics so I appreciate the question, Senator.
    There are a couple of different levels of metrics, 
obviously. One, as I was mentioning just a little bit earlier, 
both in Pakistan and Afghanistan our embassy and our military 
counterparts are developing implementation plans at the field 
level, and embedded in those plans will be specific metrics 
that we will be able to assess how we are doing in implementing 
our plans.
    Then at the higher level, at the strategic level here in 
Washington, the National Security Council is taking the lead in 
pulling together the higher-order metrics that we will measure 
against on a regular basis and report both to the Executive 
Branch and to Congress on how we are doing against those 
metrics. Our effort is to try to focus on metrics that there 
are metrics that measure inputs, metrics that measure outputs, 
and metrics that measure actual effects on the ground. We want 
to focus on the latter, recognizing that we need a certain mix 
of those three metrics because the effects on the ground are 
usually somewhat delayed from the inputs, and so you want to 
see that the activities that we have pledged to undertake are 
actually happening, that there is some output from it, and then 
there is effect on the ground.
    So we are heavily engaged in that process, and I think 
pretty shortly we will be able to come to Congress and explain 
the metrics that we have devised. We welcome input, and I think 
there has been quite a number of consultations at the staff 
level on what sort of metrics would be most useful. And we have 
also received that feedback in terms of appropriations 
legislation.
    Senator Akaka. Mr. Jones, in the President's strategy for 
Afghanistan and Pakistan, he articulated his goal: To disrupt, 
dismantle, and defeat al Qaeda in Pakistan and Afghanistan, and 
to prevent their return to either country in the future. A 
primary focus on al Qaeda, of course, makes sense. Are there 
any other significant organizations that may negatively impact 
regional or international security that must also be 
considered?
    Mr. Jones. Yes, Senator, there certainly are, and the 
organizations that have in the past and currently aid and abet 
al Qaeda, such as the Taliban, are of great concern to us, 
organizations such as LeT and others that have been engaged in 
terrorist operations that are on sanctions lists. There is a 
variety of opinion about to what extent some of these 
organizations coordinate and cooperate, but I think it is safe 
to say that there is the--as long as you have organizations 
that are inclined toward extremism and terrorist acts in 
Afghanistan and Pakistan, that increases the vulnerability to 
cooperation with al Qaeda and organizations that actually have 
the ability to and the intent to inflict harm on the United 
States, on our allies and our interests.
    And that is clearly what we see currently as the threat in 
this region, and so we take a broader view than just al Qaeda, 
as you mentioned, Senator.
    Senator Akaka. The President's strategy states that the 
United States must pursue constructive diplomacy with both 
India and Pakistan. This is an important issue considering the 
historic tensions between these two countries.
    What is the strategy for pursuing constructive diplomacy 
between these two countries? What steps already have been made?
    Mr. Jones. Thank you, Senator. We are very encouraged to 
see some of the steps that have been taking place on their own 
between India and Pakistan. There has been the recent meetings 
we were discussing just a short while ago between the leaders 
of those two countries in Russia on the margins of a summit, 
and the possibility of future such meetings appears, according 
to their statements and according to their stated interests, in 
improving their relationship.
    Under Special Representative Holbrooke's office, our 
primary responsibility is implementing the President's strategy 
in Afghanistan and Pakistan and working with all the countries 
and neighbors that have an impact on that. Obviously, India is 
a very important neighbor, and the Indians have specifically 
requested Ambassador Holbrooke to stay in very close contact 
and to visit New Delhi whenever he can on his trips out to the 
region. So we are in very close contact. The Indians are 
obviously also a significant donor in Afghanistan, major 
players in the region.
    I think what is most encouraging is seeing the interest on 
both these countries, India and Pakistan, to improve their 
relationship.
    Senator Akaka. Thank you very much.
    Senator Carper. Senator Akaka, thank you very much again 
for joining us, for your statement, for your questions, and 
your interest in this issue.
    I am delighted that the Chairman of the Armed Services 
Committee is here. Senator Levin, please proceed.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you. Mr. Chairman, thank you for 
holding this hearing. It is a very important subject, and it 
needs a great deal of attention.
    It has been my concern for a long time that unless 
Pakistan's leaders, both civilian and military, commit in deeds 
and words to eliminating the threat from militant extremists 
and make clear that they are doing so for the sake of their 
country's own security interests and not for the sake of the 
United States, then no amount of assistance will be effective. 
I raised this point directly with Pakistan President Zardari 
when he was in Washington in May. If Pakistan makes the fight 
against extremists their own fight, then we ought to be willing 
to help Pakistan achieve a more stable and secure future. But 
we cannot buy their support for our cause, or appear to do so, 
since that would only play into the hands of their and our 
enemy.
    Now, in the last few weeks, Pakistan's military operations 
in the North-West Frontier Province and more recently in the 
Federally Administered Tribal Areas (FATAs), suggests that the 
Pakistan Government may now recognize that the terrorist threat 
posed by extremist groups in the western border region is an 
existential threat and must be confronted.
    Yesterday, it was reported that President Zardari said he 
wants to create a ``Pakistan where militancy is defeated,'' and 
Pakistan Army Chief of Staff General Kayani was quoted as 
saying that ``the immediate internal threat'' of Taliban 
extremism was greater than any external threat, which was 
understood to be a reference to India.
    Where do they make these statements? The interview 
yesterday, with the the President of Pakistan, was in the 
London Daily Telegraph. Is he making the same statements to the 
Pakistan public? Do you know, Mr. Jones?
    Mr. Jones. Senator, thank you. I do not know specifically 
if he is saying those words. I would note that there has been, 
as I am sure you have noted, quite a change in the whole 
political dialogue in Pakistan among the leaders and among the 
media that have changed quite considerably to recognize the 
Taliban as an enormous threat.
    Senator Levin. Is that well known to the Pakistani public 
that their government considers the Taliban the major threat to 
their existence?
    Mr. Jones. According to the polling that I have seen--and I 
have not seen anything very authoritative--there has been a 
remarkable shift in public perception of the Taliban as being a 
threat to their government and society, to the order of 30 
percent to 80 percent. I have had, as I am sure you have, the 
experience of meeting with quite a number of Pakistanis out in 
Islamabad who are really quite scared for the future of their 
country. And as I understand it, that certainly would not have 
been the case a year or more ago.
    So I think there has been quite a dramatic turnaround. It 
is an iterative process. I do not think we can say that has 
turned the corner, but it is something that I think we have a 
great interest in encouraging what we would say is the correct 
analysis of their national security interests.
    Senator Levin. Would you agree that unless they make it 
clear that is their view, not something that we are imposing or 
buying from them, that it is not going to be effective?
    Mr. Jones. I completely agree, yes.
    Senator Levin. Does the Government of Pakistan have any 
intention of confronting the Afghan Taliban in Baluchistan to 
deny them safe haven and prevent cross-border attacks against 
U.S. and coalition forces in Afghanistan?
    Mr. Jones. Senator, the history and relationships along the 
border area are remarkably complex with a lot of historical 
baggage, and I think what we have seen is the government and 
the army of Pakistan taking some significant steps against the 
Pakistani Taliban. I think it is in our interest to encourage 
those steps and look toward widening the aperture so that the 
activities go much broader to all the various extremist groups 
that threaten Pakistan in the region.
    So I think we are headed in the right direction. It is 
going to take some time to overcome some of the history and 
relationships that have developed since the time of the Soviet 
invasion.
    Senator Levin. Do you know whether the Government of 
Pakistan has sought to prevent the Afghan Taliban leadership or 
the Shura from meeting openly in Quetta, Pakistan?
    Mr. Jones. I think in order to fully address your question, 
we would have to--I would want to go into a closed session to 
talk about what we know and on what basis. But as I say, I 
think the important statement to make in this setting is that 
we think that there are opportunities here that are being 
recognized in Pakistan. As you say, the most important part is 
what is being recognized there, but that we can encourage.
    Senator Levin. Are you familiar with a group that is, I 
think, called the ``Nazir Group in South Waziristan?
    Mr. Jones. Yes.
    Senator Levin. Is it true that the Pakistan military 
considers them as a good group of Taliban? And do we? They have 
a goal of attacking us in Afghanistan, us and NATO. I am just 
wondering whether or not--what our attitude is towards that 
group, and what is the Pakistan Government's attitude towards 
the Nazir Group?
    Mr. Jones. Yes. Obviously, Senator, we place an extremely 
high priority on working with Pakistan against groups that pose 
a direct threat to our troops, and there are quite a number of 
individual clans, groups, offshoots, in that region who do pose 
such a threat.
    The complexity of the relationships and the historical 
approach that Pakistan has taken to this region lead to 
shifting alliances, shifting attitudes. So if the Pakistan 
Government is going after, for example, in one moment Baitullah 
Mehsud, one individual organization that is credited with the 
assassination of Prime Minister Bhutto, at that moment they may 
cooperate with other groups that would also be encouraged to go 
after that particular organization, while at other moments they 
may shift to another approach.
    Senator Levin. Do you know whether or not--and I will 
conclude; my time is up. But just on the same subject, do you 
know whether the Pakistan military, both at this moment but 
also in the recent past, considers that group, the Nazir Group 
in South Waziristan, as a friendly, good group of Taliban?
    Mr. Jones. I do not know that.
    Senator Levin. OK. Fair enough. Thank you.
    Mr. Jones. Thank you.
    Senator Levin. Thank you, Mr. Chairman.
    Senator Carper. Senator Levin, thank you very much for 
being here and for all those questions.
    Senator Burris has joined us from the State of Illinois. It 
is great to see you, and thank you so much for being a part of 
this hearing. Senator Burris, you are recognized. If you would 
like to make a brief opening statement, feel free, and then you 
will have time for a number of questions.

              OPENING STATEMENT OF SENATOR BURRIS

    Senator Burris. Thank you, Mr. Chairman. I am very 
interested in the situation and came more to listen to the 
testimony than to raise what I think would be some difficult 
questions. So thank you very much, Mr. Chairman.
    Senator Carper. Thanks so much for being a part of this.
    Let me come back to you with a couple more questions, Mr. 
Jones, and if any of my other colleagues have them, fine, and 
after that you are done. But thanks for your presence here.
    I remember, I think it was December 2007, being in Iowa. I 
was there during the run-up to the Iowa caucuses. I was there 
with the senior Senator from Delaware, who was running for 
President at the time. And I was with him the morning when 
former Prime Minister Bhutto was assassinated. I remember being 
with him at a press conference, a hastily called press 
conference, I believe in Des Moines. And I remember the words 
that he said that day. Among other things he said that what we 
need in Pakistan is not a Musharraf policy, we need a Pakistan 
policy.
    And what I think I heard you describing earlier today when 
you talked about the interagency cooperation on our side, I 
thought you mentioned that you co-chair this working group, and 
one of the other co-chairs you mentioned is a military leader, 
and certainly when Ambassador Holbrooke is not there, I think 
you fill in for him.
    That sounds to me a lot more like a Pakistan policy than a 
Musharraf policy.
    Mr. Jones. Yes, Mr. Chairman, I could not agree more, and 
as mentioned earlier, I think Congress plays an incredibly 
important role in that in the legislation and the attention 
that Senators and Members of the House of Representatives have 
paid to broadening our engagement. And I think now when we 
visit Pakistan, we are engaging with the entire political 
spectrum, and also looking, as I referred to earlier, to deepen 
our engagement with the Pakistani people.
    We had in a recent congressional delegation--the mayor of 
Karachi came up.
    Senator Carper. It was ours.
    Mr. Jones. Yes, it was yours--came up from Karachi, the 
head of the MQM party. Another great opportunity to engage 
across the political spectrum with leaders of Pakistan, which 
makes a more firm basis of a policy. And I think when you look 
at the different levels of support within Pakistan for their 
different leaders, obviously, as in ours, it is dynamic, it 
shifts, and it is to our benefit to really make our engagement 
as broad as possible.
    Senator Carper. The last issue I want to discuss is, if you 
will, the safeguarding of Pakistan's nuclear arsenal. It is a 
matter on which they certainly have a lot of interest, a lot at 
stake, and as it turns out, so does the rest of the world. 
Where does the United States rank the issue of the security of 
Pakistan's nuclear arsenal given the numerous priorities that 
we have in Pakistan? And what is the probability of militants 
inserting sympathizers into Pakistan's laboratories or fuel 
production facilities?
    Mr. Jones. Thank you, Mr. Chairman. I would say just in a 
very general sense that, obviously, that is among our very top 
priorities, and we have within the U.S. Government and within 
the State Department people dedicated who are following that 
problem and working on it, following that issue very closely. 
We obviously pay attention to that on Ambassador Holbrooke's 
team and work closely with other personnel in the State 
Department and other agencies following that.
    I think overall I can say that we have confidence that the 
nuclear weapons of Pakistan are being safeguarded by the 
Pakistani authorities. To go into more detail, I think we would 
want to bring the people who are particular experts on that 
into a closed session, but I completely agree with the level of 
interest and appreciate the question.
    Senator Carper. What has been the level of cooperation 
between U.S. agencies and their counterparts in the Pakistani 
Government to ensure oversight and accountability over U.S. 
funds?
    Mr. Jones. The relationship between the Pakistani 
Government?
    Senator Carper. Not with respect to nuclear weapons.
    Mr. Jones. Right.
    Senator Carper. Just talk to us about the level of 
cooperation between our U.S. agencies and their counterparts in 
the Pakistani Government to ensure oversight and accountability 
over U.S. funds.
    Mr. Jones. Yes.
    Senator Carper. We want to know how our funds are being 
spent.
    Mr. Jones. Yes.
    Senator Carper. And I am not sure that other countries to 
whom we provide aid or assistance are all that interested in 
allowing us, through transparency, to actually know how the 
money is being spent.
    Mr. Jones. Yes. As I am sure you are aware, Mr. Chairman, 
in addition to the historical inconsistency in our levels of 
assistance, we have also shifted back and forth with the way we 
have delivered assistance in Pakistan. We had previously 
offered quite a great deal of budget support. We went through a 
period not too long ago of actually breaking that down into 
projects, projectizing the budget support, which allowed us to 
have greater oversight and a greater window of visibility into 
exactly how funds are being spent.
    What we are doing now is we are going to quite 
significantly increase the number of USAID direct hire 
personnel in Pakistan, consonant with the planned increases in 
economic assistance. But that, we believe, will give us a 
greater level of oversight into the assistance that we provide.
    We have some issues that are--we feel we have good 
cooperation from the government, but in any situation where one 
is providing assistance, we have to have internal controls. And 
we have a great deal of interest from the Inspector General of 
USAID and the State Department and DOD in following exactly 
that question.
    We also have some restrictions in terms of our ability to 
physically get out in some insecure areas where we particularly 
want to target our assistance. But we have tried to overcome 
that by sort of a tiered approach of having local nationals who 
work for us, having a number of different windows into how the 
money is being spent, and getting photographic and other 
evidence that the projects that we have supported are actually 
coming to fruition. So it is a complex environment, but it is 
one that we follow very closely.
    I would simply add that another element of the 
Administration's strategy is to try to reduce the large 
contracts, break them down into smaller units that can be 
monitored more effectively on a short-term basis and have more 
direct effect, whether it is implemented through government 
agencies or civil society and NGOs.
    Senator Carper. All right. Thank you. Senator Levin.
    Senator Levin. I know you have indicated that the question 
of drone attacks, UAV attacks--much of which can only be dealt 
with in a classified setting. But something which has been in a 
very unclassified setting has been the attacks on us for those 
attacks that the Pakistani leaders have engaged in. And I do 
not doubt for one minute that they are aware of the fact that 
we are going to be using these attacks against targets. And yet 
when they attack us publicly for doing what I believe is 
obvious, they are very well aware of and support, what it does 
is make our situation a lot worse in Pakistan in terms of the 
Pakistani public view of the United States. And we can have all 
the humanitarian assistance in the world, hope that the 
Pakistani people understand the source of it, and that is fine, 
providing we are effective in that effort. But it just wipes 
out a lot of the value of that if the Pakistani leaders are 
publicly attacking us.
    I am just wondering whether or not we have raised this 
issue with the Pakistani leaders. They do not want us to use 
UAVs, tell us privately we are not going to be using UAVs in 
Pakistan if they oppose it. But for them to look the other way 
or to give us the green light privately and then to attack us 
publicly leaves us, it seems to me, at a very severe 
disadvantage and loss with the Pakistani people.
    I am wondering what your thoughts are on that.
    Mr. Jones. Thank you. I appreciate the comment, Senator. We 
have those discussions with the leadership in Pakistan because 
the Pakistani leadership raises those issues directly with us. 
And I think it strengthens our hand to be able to refer to the 
comments that you just made and have made on other occasions, 
Members of Congress have made on other occasions to have those 
conversations in ways that will benefit both our countries. So 
I will take that comment, if I could, sir, and relay it to 
Ambassador Holbrooke, and we will factor that----
    Senator Levin. I have already relayed it to Ambassador 
Holbrooke. My question is whether he has relayed it to them.
    Mr. Jones. Well, as I say, during the meetings that I have 
been in in Pakistan, the subject certainly comes up, and there 
is quite a wide-ranging discussion on it.
    Senator Levin. Well, I have got to tell you, if they do not 
want us to do this, they should flat out tell us privately. Do 
not look the other way and then attack us publicly. It is 
wrong. It is not just wrong morally. Put aside that. It is 
wrong in terms of American security for us to be attacked by 
Pakistani leaders for doing something which they quite 
obviously know we are going to do and support, either 
implicitly or privately, explicitly. That affects my view, I 
have got to tell you, on the kind of support that we ought to 
provide to Pakistan because one of the reasons for that support 
is that hopefully the view of the Pakistani people of our 
motive will be improved if they see we care about their 
economic situation. But that is just wiped out if their leaders 
are blaming us for the loss of civilian life inside Pakistan.
    These are very difficult issues. I know they are. And they 
ought to be limited, if not eliminated, these UAV attacks. They 
surely should be limited and handled with incredible care, if 
they are going to be used at all. But it is unacceptable to me 
to be pilloried by the Pakistani leaders, criticized in their 
public for carrying out these attacks. And I just want to let 
you know, and you can let them know, if you want. That approach 
of theirs affects the view of this Senator in terms of the kind 
of support which I am willing to vote for.
    Mr. Jones. We certainly will let them know that. Thank you.
    Senator Levin. Thanks.
    Senator Carper. Just a quick comment. We had rather 
extensive discussions 4 or 5 or 6 weeks ago when we were there 
on this subject and highly classified briefings as well. One 
thing I think we can all agree on is that to the extent that 
there are drones or pilotless aircraft used in these attacks, 
it is imperative that we minimize as greatly as we can any 
civilian casualties.
    A second thing, it appears to me that if we had better 
intelligence--and as you know, we try to use electronic 
intelligence, we try to use human intelligence to be able to 
verify where the most highly dangerous of insurgents are 
located, where they are operating, where they might be 
gathered. To the extent that we can be provided more accurate 
information and more timely information through the Pakistani 
intelligence services themselves, we can, I think, 
significantly reduce the potential that people, civilians, are 
going to be harmed in those attacks.
    Senator Levin. I agree.
    Senator Carper. Senator Burris, any closing comments here 
before we excuse our witness?
    Senator Burris. Yes, Mr. Chairman. Just one thought.
    Senator Carper. Please.
    Senator Burris. It is not a question. It is just a concern 
in terms of what the Taliban are doing: That is, surrounding 
themselves with civilians, and that makes our task even more 
difficult when the evidence shows, Mr. Jones, that this does 
take place, where Taliban forces will be in homes or villages 
and launch their activities from those sources where there are 
civilians. And it makes our job that much harder, and then we 
end up launching a drone or a missile, and 18 or 19 civilians 
are killed, and then we are the bad guys. So in some way, we 
have to try to solve that situation.
    Senator Carper. I could not agree more.
    Mr. Jones, I was meeting with some folks in Delaware the 
other day, and as we were ending our meeting, this fellow said 
to me, well, I would not be doing my job if I did not give you 
my final order--not a direct but an actual request for what we 
might do in the Congress to address the concerns that were 
raised at our visit.
    I am going to give you an opportunity to close it out here 
from your panel. What do you need from us? Not just this 
Subcommittee or not just this Committee, but what do you need 
from the Congress particularly with respect to Pakistan? We 
will not get into Afghanistan. What do you need from us?
    Mr. Jones. Well, thank you, Mr. Chairman. And let me just 
say before commenting on that, I am really heartened and 
encouraged that I think we are in complete agreement between 
the Executive and Legislative Branches, as discussed in this 
hearing, with the goals of our policy, and we are really 
committed to working together with you to achieve them.
    The support has been tremendous. I think enactment of what 
is known as the Kerry-Lugar legislation in the Senate and the 
Berman bill on the House side would be very important. I think 
that is critically important to conveying the kind of strategy 
that you enunciated.
    Obviously, passing the President's request for the 2010 
budget--it contains significant assistance that we need to 
incorporate into our strategy.
    And then, finally, as I mentioned, the Reconstruction 
Opportunity Zone legislation, which is attached to the House 
version, to the Berman legislation. Obviously, there are other 
vehicles, but we think that is something that really carries a 
lot of resonance in Pakistan, and it is particularly targeted 
at the border areas and would encourage confidence, would 
encourage some economic activity that we think would show 
people that it is not only about assistance but it is about 
opening up what for us is a very small opportunity of duty-free 
trade for the Pakistanis, a very big symbol, and we think it 
would help our mutual efforts.
    So I really appreciate this opportunity and look forward to 
being in close contact with you, Mr. Chairman, and your 
Subcommittee.
    Senator Carper. Good. Thank you so much. Thank you for 
joining us and for your efforts. And you are excused.
    We would like to invite the second panel to join us at this 
time, please. Thank you.
    Mr. Jones. Thank you again.
    Senator Carper. As our second panel is joining us at the 
table, I am going to go ahead and begin some introductions of 
our panelists.
    I will start off with Lisa Curtis. Lisa Curtis is a Senior 
Research Fellow at the Heritage Foundation where she focuses 
primarily on India, Pakistan, and Afghanistan. It is a great 
portfolio for this panel. From 2001 to 2003, she served as a 
Senior Adviser in the State Department's South Asia Bureau, 
where she advised the Assistant Secretary on India-Pakistan 
relations. In the late 1990s, Ms. Curtis served in the CIA as a 
political analyst on South Asia. She also served as a political 
officer to U.S. embassies in Islamabad and in New Delhi from 
1994 to 1998, and during her tour in Islamabad, she earned a 
Meritorious Honor Award from the State Department for 
contributions to a year-long four-nation endeavor to free 
hostages held by militants in Kashmir.
    Next, welcome to Nicholas Schmidle. Mr. Schmidle is a 
Fellow at the New America Foundation. He is the author of ``To 
Live or To Perish Forever: Two Tumultuous Years Inside of 
Pakistan,'' which just came out, I am told, in May, about 2 
months ago. My staff has read it and highly recommends it to 
me. I understand that you regularly contribute to the New York 
Times Magazine, to Slate, to the New Republic, the Washington 
Post, the Virginia Quarterly, and many other publications. In 
2008, I am told Mr. Schmidle received the Kurt Schork Award for 
freelance journalism based on his reporting in Afghanistan and 
Pakistan, where he lived throughout 2006 and 2007 as a Fellow 
of the Institute of Current World Affairs.
    Next is Shuja Nawaz. Mr. Nawaz, a native of Pakistan, was 
named the first Director of the South Asia Center at the 
Atlantic Council in Washington this past January. Mr. Nawaz has 
contributed his experience to RAND, the United States Institute 
of Peace, the Center for Strategic and International Studies, 
the Atlantic Council, and other leading think tanks. While 
attending Gordon College, he was named the Cabot Fellow and won 
the Henry Taylor International Correspondent Award. His latest 
two books are ``Crossed Swords: Pakistan and Its Army, and the 
Wars Within'' and ``FATA--A Most Dangerous Place.''
    Next, Nathaniel ``Nate'' Fick. Mr. Fick was named Chief 
Executive Officer of the Center for a New American Security 
about a week ago. Congratulations. Before joining the Center 
for a New American Security, Mr. Fick served as a Marine Corps 
infantry officer--Semper Fi--leading a reconnaissance unit 
during the invasion of Iraq in 2003. I understand you are the 
author of the 2005 New York Times best-seller entitled ``One 
Bullet Away.'' The Commanding General of the U.S. Marine Corps 
Forces Central Command has made your book required reading for 
officers deploying to Afghanistan and to Iraq. Mr. Fick, 
previously an on-air national security consultant to CBS News, 
is a member of the Council on Foreign Relations and the 
International Institute for Strategic Studies. I understand you 
serve on the boards of the Marine Corps Scholarship Foundation, 
whose mission is to provide opportunities for children of 
marines killed in action. Good for you. Thanks for doing that.
    And, finally, Rolf Mowatt-Larssen.
    Mr. Mowatt-Larssen served over 3 years as Director of 
Intelligence and Counterintelligence at the U.S. Department of 
Energy. You served, I am told, for 23 years as a CIA 
intelligence officer in various roles, including Chief of the 
European Division in the Directorate of Operations, Chief of 
Weapons of Mass Destruction Department, and Deputy Associate 
Director of Central Intelligence for Military Support. Mr. 
Mowatt-Larssen's overseas assignments include Stockholm, 
Moscow, Athens, Yerevan, Zurich, and Oslo. Before his career 
with the CIA, Mr. Mowatt-Larssen served as an officer in the 
U.S. Army. He has been awarded the CIA Director's Award, 
Secretary of Energy's Exceptional Service Medal, the 
Distinguished Career Intelligence Medal, among others.
    That is quite a line-up, and we are honored to have each of 
you before us this afternoon to continue this conversation.
    I am going to ask you to please stick to your 5 minutes, 
and if you go much beyond that, I will have to rein you in. But 
I will ask you to stick to that so we will be sure to be able 
to ask you some good questions later on.
    Ms. Curtis, I understand you are just back from the region, 
having participated in a Transatlantic Opinion Leaders tour of 
Afghanistan, and we want to invite you to begin your testimony. 
Welcome and thank you.

  TESTIMONY OF LISA CURTIS,\1\ SENIOR RESEARCH FELLOW, ASIAN 
            STUDIES CENTER, THE HERITAGE FOUNDATION

    Ms. Curtis. Thank you, Chairman Carper, Senator Levin, and 
Senator Burris. It is an honor to be here today. My remarks 
will focus on developments in both Pakistan and Afghanistan 
where, as you mentioned, I recently returned.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Curtis appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    Containing the global terrorist threat in South Asia 
requires the United States to forge a trusting and cooperative 
partnership with Pakistan. The future direction of the region, 
including the outcome of the war in Afghanistan, pivots on 
Pakistan's ability to overcome multiple socioeconomic 
challenges as well as its willingness to fight terrorism in all 
its forms within its own borders.
    There has been a welcome change in the Pakistan military's 
attitude toward confronting the Pakistani Taliban in the 
northwest part of the country in just the last 10 weeks. In 
late April, under both Pakistani public and U.S. pressure, and 
following Taliban advances into new districts close to 
Islamabad, the Pakistan army began an offensive that has since 
ousted the Taliban from the Swat Valley. A combination of 
events, including the Taliban declaring democracy in Pakistan 
as ``infidel,'' has begun to change the Pakistani public's 
attitude toward the Taliban, thus prompting the army to take 
them on militarily.
    The fighting, however, has led to a severe humanitarian 
crisis with nearly 3 million people fleeing their homes. The 
United States has provided substantial aid to help relieve the 
crisis, $380 million, as we heard previously, but the United 
Nations is still far short of the funds it needs to address the 
crisis. There are reports that banned extremist organizations 
have access to refugee camps and will use the plight of the 
displaced people as a recruiting tool. The United States must 
insist Pakistan restrict extremist groups' access to these 
camps.
    The Pakistan army also is preparing for an additional 
offensive in the tribal areas in South Waziristan. This is 
where insurgent forces of Pakistani leader Baituallah Mehsud 
reside. Baituallah Mehsud is an ally of both al Qaeda and the 
Afghan Taliban, but has focused his attention more recently on 
targeting the Pakistani state through a spate of suicide 
bombings. The United States must encourage Pakistan to 
implement hold and build strategies in the tribal areas 
following any military operations. The United States also 
should discourage the Pakistan military from striking 
additional peace deals, pointing out that past deals have only 
undermined Pakistan's position strategically.
    During my recent visit to Afghanistan, several NATO 
commanders expressed the view that Pakistan military operations 
in the tribal areas are helping reduce the flow of militants 
and insurgents into eastern Afghanistan. Still, NATO commanders 
acknowledge that the command and control of the Afghan Taliban 
resides in and around Quetta, Baluchistan, and provides 
leadership and critical access to money flows for insurgent 
operations in Afghanistan. They said that if the Taliban 
leadership in Quetta was neutralized, it would deal a 
significant blow to the insurgency in southern Afghanistan, 
depriving it of guidance, focus, and legitimacy.
    Therefore, the United States must convince Pakistan to 
crack down on Afghan Taliban leadership and should determine 
the level and type of further U.S. military aid to Pakistan 
based on Islamabad's efforts in this regard.
    One of the major problems in garnering full Pakistani 
cooperation against the Afghan Taliban is continued paranoia 
among security officials about India's role in Afghanistan. The 
United States views Indian development activities, like road 
and dam construction, and humanitarian assistance as helpful 
while Pakistan security officials view it as an attempt to 
encircle Pakistan.
    Let me just say a few words on Afghanistan, if I may, based 
on my observations from my trip.
    I think there has been improvement in the coordination of 
the international effort that I could perceive, and I think 
there is support among the NATO partners for the evolving U.S. 
strategy, namely, the focus on a population-centric approach. 
Allies such as the U.K., Canada, the Netherlands, Denmark, and 
Poland are providing invaluable contributions to the fighting.
    The new push by U.S. forces into Helmand Province is part 
of a broader effort to regain the initiative from the Taliban 
in the south. The NATO commanders I met with in Regional 
Command South were enthusiastic about the arrival of the 
additional U.S. troops to southern Afghanistan. They noted that 
up until now they had lacked sufficient resources to implement 
an effective counterinsurgency strategy. The commanders we met 
with believe the U.S. troop influx will help shift the momentum 
against the Taliban, perhaps as early as late summer or early 
fall.
    It is important that the August 20 elections in Afghanistan 
are carried out in a credible manner and that the Afghan people 
believe the democratic process can bring change to their 
everyday lives. It would be devastating if, just as the 
international community is getting its act together and 
implementing a winning strategy, the Afghan people lose faith 
in the democratic process because of a flawed election.
    As I said at the beginning of my remarks, containing the 
global terrorist threat requires us to partner closely with 
Pakistan. In this regard, Congress should move quickly to 
reconcile the two separate pieces of Pakistan legislation that 
have recently passed the House and the Senate to demonstrate 
the U.S. commitment to a long-term partnership. The Afghanistan 
and Pakistan Reconstruction Opportunity Zones Act that would 
provide U.S. duty-free access to items produced in zones in the 
border areas of Afghanistan and Pakistan also is an integral 
part of changing security perceptions in the region and should 
be a priority for this Congress.
    Thank you.
    Senator Carper. Ms. Curtis, thank you. Mr. Schmidle, 
welcome.

    TESTIMONY OF NICHOLAS SCHMIDLE,\1\ FELLOW, NEW AMERICA 
                           FOUNDATION

    Mr. Schmidle. First, I would like to thank you, Chairman 
Carper, Senator Levin, and Senator Burris. I am honored for the 
opportunity to share some thoughts on the subject of 
strengthening U.S.-Pakistan relations today with a specific 
focus on explaining the character and dynamics of jihadist 
militancy in Pakistan.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schmidle appears in the Appendix 
on page 66.
---------------------------------------------------------------------------
    The United States is dependent on Pakistan for 
accomplishing its objectives in Afghanistan. Many of the 
insurgents fighting against American soldiers in Afghanistan 
are either based in Pakistan or being commanded from Pakistan. 
Top Afghan Taliban leaders use Quetta, the capital of 
Pakistan's Baluchistan Province, as their headquarters from 
where they direct operations in southern Afghanistan. And 
insurgents in eastern Afghanistan are being supported and led 
by networks in Pakistan's Federally Administered Tribal Areas 
and, to a lesser extent, the North-West Frontier Province.
    I am going to focus my testimony today on those insurgent 
and jihadists fighting against the Pakistani Government, 
however. I often hear U.S. military officials describe their 
adversaries along the Afghanistan-Pakistan border in general 
terms such as ``the enemy,'' while in the same sentence 
proposing to isolate specific ``irreconcilable'' militants from 
specific ``reconcilable'' ones. But what is the character of 
the jihadist threat in Pakistan? I want to take a few minutes 
to answer this question in two parts. The first part is who 
constitutes the enemy in Pakistan, and the second part is how 
does the Pakistani military conceptualize the enemy.
    So who are the jihadists and insurgents fighting against 
the Pakistani Government? The Pakistani militants are not a 
monolithic, disciplined entity. They are probably best 
understood as belonging to one of three categories, each with 
different safe havens, objectives, and vulnerabilities. Those 
three groups are: First, foreign al Qaeda elements; second, 
Kashmiri and sectarian militants; and, third, Tehreek-e Taliban 
Pakistan, or the Pakistani Taliban Movement.
    The foreign militants--which are predominantly Arabs and 
Uzbeks, with a smaller number of Turks, Chechens, Africans, and 
some Europeans--can be classified as al Qaeda and are estimated 
to account for several hundred fighters. They are suspected of 
being based in South Waziristan, North Waziristan, Mohmand 
Agency, Bajour, and in Swat. Owing to their internationalist 
backgrounds, most of them have international aims, whether it 
is committing terrorism abroad; committing terrorism against 
international targets in Pakistan and Afghanistan; or in order 
to consolidate their own control over these areas, committing 
violence against the traditional tribal authorities. Of the 
three categories of militants in Pakistan, these are by far the 
least interested in reconciliation.
    The Kashmir and sectarian groups have long enjoyed a 
symbiotic relationship with the Pakistani State. In the mid-
1980s, the main anti-Shia outfit, Sipah-e-Sahaba, was formed 
with military support with the goal of transforming Pakistan 
from being a Muslim state into being an explicitly Sunni Muslim 
State. However, Sipah-e-Sahaba members spent a considerable 
amount of time in Afghanistan during the Taliban era, 
participating in pogroms against Afghanistan's Shia Hazara 
minorities. In the early 1990s, a Sipah-e-Sahaba splinter 
group, known as Lashkar-e-Jhangvi, was created with an even 
more ambitious and murderous agenda and has been accused in the 
abduction and murder of Daniel Pearl and the bombing of a 
church in Islamabad in 2002 and, to some extent, the 
assassination of Benazir Bhutto. Sipah-e-Sahaba and Lashkar-e-
Jhangvi are the homegrown Pakistani equivalent of the sectarian 
death squads that have terrorized Iraq for years.
    Within the second category are also the Kashmiri militant 
groups like Jaish-e-Mohammad, Harakat-ul-Jihadi-Islami, and 
Lashkar-e-Tayyiba. Most of these groups, Kashmiri and sectarian 
ones alike, are based in southern Punjab, in and around Multan, 
Bahawalpur, and Jhang. The Kashmiri groups receive substantial 
support from the Pakistani intelligence agencies to carry out 
attacks against Indian forces in Kashmir, and this support and 
training makes them now particularly dangerous. So unlike many 
of the Pashtuns who call themselves Taliban and are fighting 
against the State, these fighters are simply more than just 
disgruntled men with guns.
    The uprising at the Red Mosque in July 2007 was critical 
for this reason, for not only did it bring together sectarian 
and Kashmiri militants from southern Punjab, but it also 
brought together Pashtuns from the border and Arab jihadist 
ideologues. But, second, and most importantly, it exposed the 
limitations of the Pakistani intelligence agencies, for while 
senior leaders of the state-supported jihadist groups went to 
the mosque to plead with the brothers who were in charge to 
halt their activities, the foot soldiers from these state-
supported jihadist groups had already switched sides. In other 
words, the state may have succeeded in its bid to reconcile the 
leaders of some groups, but what good is a leader with no one 
to lead? Those who survived the final raid on the mosque 
ultimately fled to the tribal areas, where they have taken up 
refuge with the Taliban.
    This brings us now to the Pakistani Taliban, which have 
evolved into the lethal force they have become primarily 
because they represent a fusion of al Qaeda, Kashmiri and 
sectarian jihadist groups, and Pashtun discontent. Consider the 
case of Baituallah Mehsud and his organization based in the 
Mehsud areas of South Waziristan. Mehsud's deputy, Qari 
Hussein, belongs to Lashkar-e-Jhangvi, the anti-Shia sectarian 
group. When his men kidnapped almost 200 Pakistani soldiers in 
August 2007, they looked through the soldiers' gear, found at 
least one of them who was carrying Shia literature, and 
proceeded to have his head cut off--by a teenage boy with a 
knife. This sectarian facet is critical to understand because 
now we see most of the fighting in the Kurram Agency of the 
tribal areas occurring between Sunni Talibs and local Shia 
fighters.
    So who is reconcilable? There are two groups of combatants 
who fall into this category: Those Pashtuns currently fighting 
alongside the Taliban who joined the Taliban out of a sense of 
ethnic identity and Pashtun nationalism, and those bandits and 
criminals who realized that donning a turban and beard provided 
some legitimacy to actions otherwise considered ``banditry.'' 
But the most important group that the Pakistani Government 
should be targeting with aid and security are those Pashtun-
populated areas in the North-West Frontier Province and 
Baluchistan where the Taliban are not a significant presence 
yet. The more that Islamabad can portray the insurgency as 
being led by foreign religious extremists and not by local 
Pashtuns, the better chance it has of success.
    Could I have two paragraphs to talk about the Nazir Group 
here in the end?
    Senator Carper. If they are short.
    Mr. Schmidle. OK. Publicly, the Pakistani military and 
intelligence establishment has maintained a certain amount of 
confidence that it can pit various groups against one another. 
But as we were mentioning, as Senator Levin was mentioning 
earlier, in the Pakistani threat perception there are ``good'' 
and ``bad'' Taliban, and this case certainly applies in South 
Waziristan, where right now the military is talking about an 
offensive there, and we see Baituallah Mehsud and his fighters 
coming under attack, and yet Maulvi Nazir being seemingly 
unfazed.
    Now, this relationship between Maulvi Nazir and the 
Pakistani military really dates back to the spring, April 2007, 
when Maulvi Nazir drove the Uzbek foreign al Qaeda elements out 
of his territory with support from the Pakistani army. The 
general who was in charge of this territory later confided to 
me that he had commanded his soldiers to take off their 
uniforms, to take AK-47s, to look like locals, and to fight 
``as Taliban'' with the Taliban against these foreign fighters. 
So this story should show that the new-found vigor on display 
by the Pakistani army only pertains to some militant factions.
    I will end on that.
    Senator Carper. Thanks very much. Mr. Nawaz.

 TESTIMONY OF SHUJA NAWAZ,\1\ DIRECTOR, SOUTH ASIA CENTER, THE 
                        ATLANTIC COUNCIL

    Mr. Nawaz. Thank you, Mr. Chairman, Senators Levin and 
Burris. I am honored to appear before you today to share my 
thoughts with you on what works and what could work in 
Pakistan, and how we can make the United States a better 
partner in building Pakistan safer and stronger. I speak as a 
Pakistani but also as someone who has lived and worked in the 
United States since 1972.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Nawaz appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    While the situation in Pakistan may appear bleak, I do not 
think it is hopeless. Pakistan is a complex country, struggling 
nearly 62 years since independence to define its nationhood. 
Repeated military and autocratic rule, both civil and military, 
has left its key institutions stunted. The limitations of its 
military rulers have been matched by the short-sightedness of 
its civil leadership. Most political parties are run as 
personal fiefdoms and family businesses or on feudal patterns. 
Rarely do they allow internal democratic systems to emerged. 
Ironically, only the major religious party, the Jamaat-i-
Islami, actually holds elections at various levels and 
routinely elects new leaders from the rank-and-file.
    I welcome President Obama's and the U.S. Congress' moves to 
change the relationship with Pakistan to focus on a longer-term 
commitment to the people of Pakistan and not on an alliance 
with any single person, party, or institution. In this season 
of bipartisan support for help to rebuild Pakistan and reshape 
U.S. policy, I offer some information and suggestions.
    First, we must recognize the emerging demographic shape of 
Pakistan: Over 60 percent of its population is below 30 years. 
Most of its youth are disenfranchised, disconnected with the 
economy and polity, and unemployed. They are disaffected and 
vulnerable to the blandishments of their radical co-
religionists, who have used a convoluted interpretation of 
Islam to attract Pakistani youth to their side.
    Yet Pakistani society has strong sinews. When given the 
chance, its people work hard and do well. They helped build 
Britain's textile factories and help run the economies of the 
Gulf States and the Arabian Peninsula. They remit about $6 
billion a year to their homeland. A recent World Bank study 
showed that from 1980 to 2007, Pakistan ranked second only to 
China's 9.9 percent average GDP growth rate with a growth rate 
of 5.8 percent. All this in spite of government. Today Pakistan 
has a middle class of some 30 million with an average per 
capita income of $410,000 a year on a purchasing power parity 
basis.
    So how do we engage this complex Pakistan so we can 
leverage its strengths and build a long-lasting relationship? 
Certainly not by threats or coercion, for Pakistanis are a 
proud people and do not respond well to the carrots-and-sticks 
approach. In any case, such an approach is not employed by most 
of us in our personal friendships. Why would we use it with 
another country? Rather, we need to build trust on the basis of 
understanding.
    Pakistan's military now appears to have recognized that the 
internal threats are more immediate than the looming presence 
of a powerful India to the east. But it does not have the full 
training nor the equipment to fight an insurgency. When the 
United States talks of counterinsurgency training, it sounds to 
the Pakistanis that they must abandon conventional defense. We 
must clarify that this is not the case.
    Until Pakistan's threat perceptions change, we must be 
prepared to support its military in creating a hybrid force, 
ranging across the spectrum of capabilities. This will allow 
them to shift from the Committee on Information Needs (COIN) to 
conventional, as needed.
    Now, how can the United States become more effective? USAID 
is broken badly by years of neglect. It must be rebuilt, 
empowered, and given the staff to strategize and manage its 
projects, develop relationships inside Pakistan, and 
effectively deliver aid where it is needed. USAID is aptly 
named in my view. Most of its aid money stays in the United 
States. This must stop. USAID needs to stop being a contract 
management agency and become again a powerful partner of U.S. 
diplomacy, working with local counterparts.
    We must also better coordinate assistance, so DOD, State, 
Treasury, Commerce, USTR, DOE, and other agencies work together 
rather than autonomously or at cross purposes. So Congress 
needs to support the Special Representative's work in this 
regard.
    Trade can be a huge supplement to aid. Politically 
difficult moves such as the Free Trade Agreement and removal of 
quotas on textile imports would allow Pakistan to help itself. 
A study by the Peterson Institute for International Economics 
supports this idea. But we must encourage Pakistan to move up 
the value-added chain towards manufacturers if it is to stay 
ahead of the population growth curve.
    The ROZs fall in the same category. It is a very expensive 
solution, but it is not a permanent solution to the problem. So 
we must encourage Pakistan to move up the value-added ladder 
towards manufacturers, as I said, and to have these ROZs 
located near population hubs and communications.
    There is a better way of creating jobs in FATA, and we have 
a calculation that if you create 300,000 jobs in FATA, you have 
basically eliminated the entire pool of unemployed youth in the 
area which are being recruited by the Taliban.
    On retraining the military, we must recognize that the 
Pakistan army also needs help in keeping up its conventional 
force even while we build up its mobility and ability to fight 
militants. Mr. Chairman, four helicopters will not do the 
trick. The United States can and should divert larger numbers 
of helicopters and COIN-oriented equipment to Pakistan as it 
replaces the fleets of European Allies, for example.
    We must also replace the coalition support funds with 
regular foreign military funding with milestones and benchmarks 
proposed by Pakistan's military and agreed to by the United 
States. This will help transform the current patronage 
relationship from an army for hire to an army that is fighting 
Pakistan's own war.
    How do we attract the aid monies and make their use 
transparent? I believe in accountability, Mr. Chairman, and 
responsible use of domestic and foreign funds. Pakistan does 
not have the ability to track its civil or military 
expenditures effectively; we must help Pakistan to create these 
systems. A comprehensive financial tracking system in the 
Ministry of Finance and in the Ministry of Defense will help 
strengthen civilian control and supremacy inside Pakistan.
    Chairman Carper. Mr. Nawaz, I am going to ask you to wrap 
up your testimony please.
    Mr. Nawaz. Yes, sir.
    The Pakistani Diaspora can provide the backbone for such 
efforts. On its part, the U.S. Government needs to make its aid 
transparent. Finally, Mr. Chairman, I return to the complexity 
of Pakistan, its strategic choices and external and domestic 
challenges. The United States must work behind the scenes to 
understand Pakistan's security concerns and to alleviate them, 
and India is a key player in this region. The United States 
must use its influence with India so that it shows, in the 
words of my friend Peter Jones at the University of Ottawa, 
``strategic altruism.'' Both India and Pakistan must leapfrog 
the hurdles of historical distrust and conflicts to fight the 
common enemies of poverty, terror, and religious extremism. 
There is no alternative.
    Thank you, Mr. Chairman.
    Senator Carper. Thank you very much. Mr. Fick, welcome.

TESTIMONY OF NATHANIEL FICK,\1\ CHIEF EXECUTIVE OFFICER, CENTER 
                  FOR A NEW AMERICAN SECURITY

    Mr. Fick. Thank you, Chairman Carper, distinguished Members 
of the Subcommittee. It is an honor to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fick appears in the Appendix on 
page 75.
---------------------------------------------------------------------------
    My comments this afternoon are based largely on a research 
project I have just completed with my colleagues David 
Kilcullen and Andrew Exum. I know you are familiar with Dr. 
Kilcullen's work in Afghanistan and Pakistan, and Mr. Exum is 
currently serving on General McChrystal's assessment team in 
Kabul. I have submitted our entire formal report as written 
testimony.
    Avoiding the worst outcomes in Pakistan over the coming 
year demands that we focus on securing areas that are still 
under government control, build up the police and civil 
authority, and measure progress against realistic benchmarks so 
that we know what is working and what must be changed.
    The near-term challenge for the United States and its 
allies is to stop the extremist advance, both geographically 
and psychologically. If the militant advance is not at least 
halted in the coming year in the Pakistani State, including the 
supply routes supporting the coalition in Afghanistan and 
Islamabad's nuclear arsenal could face an existential threat.
    The first priority is to change two policies that have 
proven especially destabilizing: Drone strikes against targets 
beyond al Qaeda in the Federally Administered Tribal Areas and 
the North-West Frontier, and unconditionally aiding the 
Pakistani military at the expense of other security forces.
    Remote attacks by unmanned aerial vehicles are currently 
the U.S.'s primary method of combating violent extremism in 
northwest Pakistan. The appeal of drone attacks for 
policymakers is clear, their positive effects are measurable, 
and they avoid coalition casualties. They create a sense of 
insecurity among militants and constrain their interactions 
with each other.
    Despite these advantages, the costs of drone attacks as 
they are currently being conducted inside Pakistan outweigh the 
benefits, and they are in the current context harmful to U.S. 
and allied interests. U.S. officials vehemently dispute, 
rightly, the civilian casualty figures used by the Pakistani 
press, and it seems certain that far more militants and far 
fewer civilians have been killed than is reported there.
    What matters as much as the real numbers, however, is the 
perception of these operations among the people in the FATA and 
the northwest frontier, as well as among the people of 
Pakistan's other provinces. Even beyond the Pashtun belt, drone 
strikes against Taliban targets as opposed to al Qaeda excite 
visceral opposition across a broad spectrum of Pakistani 
opinion. The U.S. reliance on drones also displays every 
characteristic of a tactic or, more accurately, a piece of 
technology substituting for a strategy.
    Currently strikes from unmanned aircraft are being carried 
out in a virtual vacuum without a concerted information 
operations campaign or an equally robust strategy to engage the 
Pakistani people more holistically. Killing terrorists is 
necessary. Expanding the target list beyond al Qaeda, as 
happened in the wake of Benazir Bhutto's assassination, 
empowers the very people the coalition seeks to undermine.
    With militant attacks spreading east of the Indus River and 
threatening the urban centers of Punjab and Sindh, where much 
of the Pakistani middle class lives, the United States and its 
Pakistani allies should build on their strengths by drawing a 
notional line at the Indus River to defend those people already 
under the control of the central government. One element in 
this strategy should be the reallocation of funds from the 
Pakistani military and intelligence services--which continue to 
view India as Pakistan's most pressing threat--and toward the 
police.
    The Kerry-Lugar Act is a welcome step in the right 
direction. It decouples military from non-military aid, triples 
that non-military aid to $1.5 billion a year, and includes 
increased allocations for the police, independent judiciary, 
and anticorruption efforts. It also--and I will cover this in 
more detail shortly--requires benchmarks and criteria for 
measuring the effectiveness of U.S. assistance.
    To be sure, short-term aid to the police forces is not a 
long-term fix for Pakistan. In the coming year, however, the 
neglected Pakistani police forces must be bolstered so that 
they can credibly secure the populations of Punjab and Sindh 
from militant attacks.
    All strategies require constant assessment, and President 
Obama's plan for Afghanistan and Pakistan is no exception. In 
the speech unveiling his new approach, the President promised 
to set clear metrics and consistently assess the impact of U.S. 
policies.
    Effective benchmarks, as Mr. Jones correctly stated 
earlier, should measure outcomes for the population rather than 
inputs by governments. Too often, the international community 
has measured progress by tracking money raised, money spent, or 
troops deployed. These are inputs, not outcomes, and they 
measure effort not effectiveness.
    Better benchmarks track trends in the proportion to the 
population that feels safe, can access essential services, 
enjoys social justice and the rule of law, engages in political 
activity, and earns a living without fear of insurgents, drug 
traffickers, or corrupt officials.
    Because perception matters in politics and the coalition's 
goals are political--to marginalize the extremists, bolster the 
government, and wean the population away from armed struggle--
perceived outcomes matter the most. It is not enough to make 
people objectively safer and better off. Before they are 
willing to put down their weapons and support the government, 
the population must feel safer and must perceive the government 
as the winning side.
    Key metrics to watch in Pakistan include the rate at which 
Taliban chapters continue to open in the Punjab and whether the 
balance of 2009 sees more attacks in the urban centers of 
Karachi and Lahore. These developments would indicate that 
instability is increasing in the Punjab and Sindh heartlands 
and would suggest that the situation on the ground is 
worsening.
    The assassination rate of maliks is another indicator. The 
Taliban have killed hundreds of maliks since 2004, a sign of 
intimidation and illustrating the erosion of civil society and 
the collapse of law and order. A drop in killings might simply 
indicate that most maliks have been killed or driven away from 
their districts, but continued high assassination rates would 
indicate ongoing insecurity.
    In closing, I would like to make an overarching suggestion. 
During the campaign against the Soviets in Afghanistan, one 
slogan unified all efforts of the U.S. Government: ``Get the 
Russians out.'' For this campaign we should consider using 
``Build local capacity,'' which, while maybe not as catchy, has 
the virtue of being clear and one word shorter.
    Thank you for the privilege of testifying before you today.
    Senator Carper. Thanks very much. Mr. Mowatt-Larssen.

  TESTIMONY OF ROLF MOWATT-LARSSEN,\1\ SENIOR FELLOW, BELFER 
 CENTER FOR SCIENCE AND INTERNATIONAL AFFAIRS, JOHN F. KENNEDY 
            SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Mr. Mowatt-Larssen. Thank you. Good afternoon, gentlemen. 
The Subcommittee asked me to address three issues: First, to 
assess the security challenge to Pakistani nuclear weapons; 
second, address the nuclear terrorism threat, in other words, 
the terrorist nuclear intent and capability; and, third, to 
make some recommendations on what might guide stronger 
cooperation between the United States and Pakistan.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mowatt-Larssen appears in the 
Appendix on page 78.
---------------------------------------------------------------------------
    To that end, I wrote a paper with my Harvard colleague and 
nuclear security expert, Matthew Bunn. I provided that paper as 
a restricted document to the Subcommittee so we could go in 
full into this topic, particularly the cooperation, without 
hyping or otherwise exacerbating any sensitivities, 
particularly when cooperation entails issues that affect 
national sovereignty as well as specific nuclear sensitivities 
that obviously, whether we are talking about Pakistan, the 
United States, or any other country, are very relevant.
    It is also, I think, for context, important to bear in mind 
that it is very dangerous to hype the issue of losing control 
of Pakistani nuclear weapons. I think any statement I have made 
certainly has stressed that the Pakistan military that protects 
the nuclear arsenal is a very professional organization. It 
takes its duties extremely serious, and I do not think anything 
I would say would question the degree of effort that they have 
put into this or their intent.
    I think the bigger question here is the problem we face 
itself has a zero tolerance standard, which applies 
particularly when we are looking at Pakistan but also globally. 
It is a standard that President Obama laid out very clearly in 
Prague, and I think changed the entire nuclear landscape. He 
described it as ``a single bomb threshold,'' where a bomb going 
off, a terrorist bomb, in any city of the world changes life 
for everybody. That is the standard that we are worried about 
when we think about upgrading security in any country in the 
world and the nature of the cooperation. I think that demands 
to cooperate are enhanced.
    The essential challenge we face is that terrorists only 
have to be successful one time, we have to be successful every 
time. And there is no such thing as perfect security or perfect 
anything if my 36 years in the government are of any relevance.
    I would like to summarize just a few of the highlights of 
things I think would be germane to say publicly. First, there 
are three trends that Pakistanis face that in particular affect 
them. They are not unique to Pakistan, but they are trends that 
are particularly worrisome. First is the increasing levels of 
extremism in the country that exacerbate the threats for 
insiders working with outsiders, the insiders in the nuclear 
establishment working with outsiders to either take out 
material or facilitate people's access inside.
    Second, their program, unlike many programs in the world, 
is an expanding program, a rapidly expanding program. More 
weapons in more places means more potential for things to go 
wrong.
    And third is the potential threat to a change in government 
and the challenges that might pose that have not been fully 
considered. The challenge to the national command authorities 
who control the nuclear command and control is not trivial at 
all. Now again, I am sure that the Pakistani establishment is 
taking it extremely serious and working through all the 
scenarios they think could occur.
    Second area of broad interest, what can terrorists do? Can 
terrorists, in fact, detonate a nuclear weapon? It is very hard 
for a terrorist group to do this. No one is saying it is easy. 
Is it more than 1 percent? If it is, it is an existential 
problem, and that is what we face.
    Terrorists have three pathways to do this. They can steal a 
bomb, they can attack a facility, or they can steal enough 
material to construct a bomb. We know since Aum Shinrikyo in 
the early 1990s and al Qaeda as early as 1993 that the intent 
is clear, terrorist groups want to do this. The only thing we 
think that they have not been able to do, which is significant, 
is overcome the barriers in terms of having the capability. And 
that is what we are trying to stop by ensuring security of all 
nuclear facilities globally, but particularly in unstable 
areas.
    Finally, in looking at cooperation, just to discuss in a 
more general sense, I think one thing in particular I would 
stress is the insider threat. We have seen in the United 
States, itself, that we have had arrests in my time in the 
Department of Energy, for example, of employees that had 
issues. So, therefore, again, we think we have something to 
share. We think all countries should share more about nuclear 
security-related upgrading. The Pakistan-U.S. effort in this 
regard, from my standpoint, is a model for how countries need 
to think. And I think the International Atomic Energy Agency 
should play a bigger role.
    Second, how do they strengthen protection against 
outsiders, particularly outsiders who will attack a facility?
    Third, talking about winning the battle of hearts and 
minds--and I have heard some of that here today. And most 
notably with hearts and minds is making the point that Islam as 
a great religion in no way would condone the slaughtering of 
innocents that is part and parcel of a nuclear terrorist 
attack. Groups like al Qaeda or Lashkar-e-Tayyiba or others 
cannot get a free ride expressing the intent as a legitimate 
expression under Islam, and it is important that clerics and 
groups worldwide, particularly nongovernmental groups, work 
against that trend.
    Fourth, increasing threat awareness, the fact that nuclear 
terrorism is not still regarded as a real threat in many parts 
of the world, as I alluded to earlier.
    And, finally, the improvement of joint communications and 
reducing misunderstandings. If the United States and Pakistan 
do nothing else than have a robust trust and communication that 
is created through these exchanges, by my standard, again, of 
the most important things we need to do, that would be at the 
top of the list. We can resort to those mechanisms, 
particularly in a crisis where there is a suggestion--whether 
it has happened or not--that there may be a lost nuke or an 
attack on a facility, and we are dealing with reports that have 
to be confirmed and the only way we are going to really be able 
to do that is through trusted channels between Pakistan and the 
United States.
    Thank you Mr. Chairman.
    Senator Carper. Yes, thank you for excellent testimony from 
all of you. And Senator Levin, who has been here in the U.S. 
Senate for a long time, heard a lot of witnesses, a lot of 
panels of witnesses, said to me just before he slipped out 
during Mr. Mowatt-Larssen's testimony, he said, ``These are 
damn good witnesses.''
    And I have sat next to him in a bunch of hearings over 
time, and I do not think I have heard him ever say that. I am 
sure he has thought it. But this is really exceptionally a good 
panel, and thank you all for sharing your thoughts with us.
    I am going to yield to Senator Burris if he has any final 
questions or comments. I have a number of questions I want to 
ask before we conclude. I think we are going to vote at 4:45, 
about 20 minutes from now. But I would like for us to get in 
more questions. Senator Burris, any comments or questions you 
would like to ask, feel free.
    Senator Burris. Thank you, Mr. Chairman, I am listening to 
this excellent testimony and thought I knew a lot until now. 
Mr. Schmidle, maybe you can help me out here. I am trying now 
to distinguish between whether or not the Pakistanis or al 
Qaeda or the Afghans or the Talibans or each of these groups, 
are these Pakistanis that are what we would call militants and 
they are joining the anti-force within their own government 
that are now fighting for or against our troops that would 
cross over the border and go back into Afghanistan? Could you 
clear this up for me since now I have listened to such 
excellent testimony and am trying to sort it out?
    Mr. Schmidle. Senator Burris, thank you. I am not sure that 
I can totally clarify it. I think that it is incredibly murky, 
as you suggested.
    Those who are fighting in Pakistan, there are very few 
Afghans who are crossing the border to fight with the Taliban 
against the Pakistani Government. There are, however, many 
Pakistanis who up until the time--really we have to look at 
this July 2007 government raid of the mosque in Islamabad as a 
turning point when the insurgency against the government became 
popular for a while amongst the various militant groups, who up 
until that point, even though they thought that President 
Musharraf was doing the work of the Americans and there was 
still some opposition to him, still primarily focused their 
attention on fighting American and NATO forces across the 
border in Afghanistan.
    So since that event, though, it did attract a great amount 
of attention from the various militant groups. Those Pashtuns, 
however, who are fighting in the North West Frontier Province 
are not necessarily militants. I mean, some of them are simply 
tribesmen who, over the course of the past several years, have 
in an accidental bombing raid by the Pakistanis had their house 
destroyed and have then said, OK, well, I have now sworn the 
rest of my life to avenging my wife's death, or whatever.
    It is multi-layered as to who the actual belligerents are 
in this struggle. I do not know if that clarifies things at 
all.
    Senator Burris. It does not. Can anyone help me out here?
    Ms. Curtis. If I might?
    Senator Burris. Sure, please, Ms. Curtis.
    Ms. Curtis. I think you have hit on a major crux of the 
problem, sir, and this has been that we have seen from the 
Pakistan Government, the military in particular, a dual policy 
of fighting some terrorists and supporting others. And it has 
not worked, sir. It is threatening to our interests in the 
region, threatening to their own interests in the region. And I 
think that is why we see such a confused situation----
    Senator Burris. Is the Taliban--they are al Qaeda?
    Ms. Curtis. What I am saying, sir, is that Pakistan has 
supported and elements of the security services probably are 
supporting parts of the Afghani Taliban to protect their own 
interests vis-a-vis India. They do not want India to have a 
foothold in Afghanistan, so this is part of the problem that we 
do have different objectives, and I think what we need to see 
from Pakistan is a more holistic approach to militancy and a 
willingness to confront the militancy and confront all militant 
groups on the same level rather than, as we heard from one of 
the other witnesses, shifting alliances, supporting some groups 
on one day, other groups on another day.
    It seems this policy has failed. It has failed to provide 
security in this region, and it is threatening to global 
national security interests.
    Senator Burris. Mr. Nawaz, can you help me out a little 
bit?
    Mr. Nawaz. Yes, Senator, if I can just simplify it, the 
Afghan Taliban comprised the so-called Quetta Shura and then 
the Haqqani group, which is in North Waziristan and the group 
belonging to Gulbuddin Hekmatyar that operates in the northern 
regions of FATA from Nuristan and Kunar Valley.
    The Afghan Taliban have not gotten into any battles with 
the Pakistan army. They have avoided it, and the Pakistan army 
has returned the favor. They have not made it difficult for 
them to seek sanctuary in Pakistan. The local Taliban, the ones 
that Mr. Schmidle was referring to----
    Senator Burris. When you say ``local,'' you mean the Afghan 
Taliban?
    Mr. Nawaz. The Pakistani Taliban.
    Senator Burris. Oh, the Pakistan Taliban.
    Mr. Nawaz. They are known, in fact, as the Tehreek-e 
Taliban of Pakistan or the Taliban Movement of Pakistan. They 
emerged only in the last couple of years. They have aligned 
themselves as franchisees of al Qaeda at times as well as 
aligned themselves with the Punjabi militant groups, the Sunni 
groups that were previously supported by the Pakistan 
intelligence services in Kashmir against India. So new 
alliances have been formed that are now operating inside 
Pakistan against the Pakistani State.
    But just to be clear, the Afghan Taliban have not taken up 
arms generally against the Pakistan army, and the army has not, 
therefore, chosen to attack them. This is a sort of 
oversimplified view. There are areas where there are some 
crossovers, but this is probably the best that one can do in--
--
    Senator Burris. So this is what our combatants over there 
are trying to deal with it?
    Mr. Nawaz. Yes, sir.
    Mr. Fick. Senator Burris, could I add one comment----
    Senator Burris. Please, Mr. Fick.
    Mr. Fick [continuing]. From the perspective of a former 
combatant. I would suggest that one easy way to think about it 
is almost like the concentric rings of a target. And if at the 
center of the target you have the groups with ambitions beyond 
the theater, Afghanistan and Pakistan, specifically al Qaeda, 
an organization with global ambition, the next concentric ring 
going out would be organizations with ambitions perhaps 
throughout Pakistan, and then wider still are groups with more 
local and limited ambitions.
    And as you get closer to the heart of that bull's eye, the 
heart of that target, the greater is the threat to the United 
States and the more latitude we should have to deal with it 
militarily. As you get closer out to the edges there, to the 
groups that have more local and limited ambition, we have to be 
much more careful militarily for risk of turning the people 
against us.
    Senator Burris. Thank you, Mr. Chairman.
    Chairman Carper. You bet. Thank you. Thank you so much for 
joining us today, Senator Burris.
    I was just saying to Wendy Anderson, our senior staff 
person on these issues, it seems to me--and I have sort of 
moved toward this thought as I listened to the first panel and 
now our second panel--the importance of reducing tensions 
between Pakistan and India and sometimes I think in terms of a 
two-fer, or I think we may have a three-fer here in this case: 
One, to the extent that those tensions are significantly 
reduced; first, reduce the likelihood of a war between those 
two countries and potential for nuclear exchange.
    Second, it allows the Pakistan military to focus on 
counterinsurgency rather than fighting a war with the country 
of India. One of you talked about helicopters and we need more 
than just four helicopters. The Pakistanis need more than four 
or six, for that matter. But then it would be, folks, the kind 
of military equipment and capabilities that frankly have not 
much at all to do with India.
    The third is that one of you spoke about how the Pakistanis 
provide almost a safe harbor for--I think it was through the 
Afghan Taliban so that the Afghan Taliban can go back and forth 
and really destabilize the Government of Afghanistan, keep them 
occupied in an effort to reduce the presence or the successful 
involvement of India in Afghanistan. If I were the Pakistanis, 
I would not want to be surrounded on one side by a hostile 
India and on the other side, on my other flank, by an 
Afghanistan that is allied with India.
    I think that those are potentially at least three good 
things that flow from reducing tensions. My hope going forward 
is that the efforts that have been started before in the 1990s 
and even in this decade that they will not just begin anew, but 
will begin with our strongest support and encouragement.
    Anybody have a thought on what I just said? You do not have 
to, but if you do I welcome it. Yes, Ms. Curtis?
    Ms. Curtis. Yes, I think the India-Pakistan rivalry, deep-
seated, historical, three wars, military crisis, so I think to 
try to say that, ``Well, if we could just get Pakistan to not 
have to worry about its border with India, then it could focus 
on militants,'' is just too simplistic. We have to look at what 
led to the derailing of the dialogue. We had a very productive 
Indo-Pakistani dialogue from 2004 to 2007. The Mumbai attacks, 
a Pakistan-based group conducting a rampage, killing 160 people 
in India in November 2008.
    Senator Carper. Excuse me for interrupting, but do you 
think that attack had anything to do with trying to undermine 
the discussions that were going on?
    Ms. Curtis. I think it probably did. I think it probably 
was aimed at causing conflict between the two countries and 
probably was aimed at taking Pakistani forces away from 
fighting the militants in the tribal areas to having to focus 
on the India border. But India also has to think about its 
security, and if it is being attacked and the elements are 
coming from Pakistan, then it has to prepare itself as well. So 
we have to keep this in mind.
    I think the role that the United States can play is to 
quietly encourage them to get back to talks, but talks that 
will really allow them to view the region differently, focus on 
non-state actors that destabilize both countries. Rather than 
trying for the United States to insert itself into the very 
sensitive Kashmir issue.
    Senator Carper. Notice I have not mentioned Kashmir at all.
    Ms. Curtis. Yes. I think this issue has been dealt with in 
the past through the back-channel negotiations that were 
mentioned before; there has been movement. So encouraging the 
two sides to get back to those talks bilaterally I think should 
be the focus of the United States.
    Senator Carper. Another comment? Mr. Nawaz.
    Mr. Nawaz. Yes, Senator. I am often referred to as an 
optimist. But then a friend----
    Senator Carper. So am I.
    Mr. Nawaz. A friend reminds me that a pessimist is an 
optimist with experience.
    Senator Carper. Yes, I think you noted that in your 
comments. I wrote that down. I hope you do not mind if I use 
it.
    Mr. Nawaz. Not at all. Senator, I think the key is not 
simply in making this a linear equation between opening up the 
dialogue between India and Pakistan and getting Pakistan to 
focus on militancy.
    The longer-term goal really must be to strengthen both 
Pakistan and India so that they can achieve their economic 
potential. India has 300 million people living at absolute 
poverty; Pakistan has also huge gaps between the rich and the 
poor, and the opportunity cost of their defense expenditures is 
extremely high. So whatever can be done by the United States 
and other friends of both countries in opening up a dialogue 
between the two countries, opening up trade, for instance, 
which would create vested interest groups on both sides, which 
would make war impossible, should be encouraged.
    Economics 101 dictates that neighbors should be major 
trading partners. Neither India nor Pakistan is each other's 
major trading partners. India's major trading partner is the 
United States or China, depending on how one counts the 
figures. Pakistan's major trading partner is the United States. 
And neither are neighbors of the United States.
    So it is very critical to try and reopen the dialogue that 
had begun, that was near fruition, at least on three of the 
four key areas where there was conflict, with Kashmir having 
been decided as an issue that was best left to settle by itself 
and to grow organically so that the line of control would 
become irrelevant. I think that is the approach that needs to 
be encouraged. And that will allow Pakistan to become 
economically and politically stronger and, therefore, be able 
to deal with the militancy at home.
    Senator Carper. Good. Thank you. Let me return to the issue 
of security of nuclear weapons in Pakistan and particularly 
with the points I think raised by Mr. Mowatt-Larssen with 
respect to insider threats at nuclear facilities.
    I am going to ask you to try and be brief; we are going to 
start voting in about 5 minutes. So please be brief in 
responding. But as I think, as you rightly point out in your 
testimony, the Pakistani military intelligence and nuclear 
establishment are not immune to rising levels of extremism in 
Pakistan.
    Do you believe that increasing levels of extremism create 
or exacerbate the insider threat at nuclear facilities? We will 
just start with you, Mr. Mowatt-Larssen.
    Mr. Mowatt-Larssen. Yes, I would Mr. Chairman. In fact, I 
would describe the insider threat from the standpoint of my 
background in intelligence and security and counterintelligence 
as their No. 1 threat. It is a far more likely possibility 
than, say, the more hyped problems of losing control of a nuke 
or a convoy being ambushed. Those things are things that have 
to, of course, be eliminated from possibility, but the 
possibility of the insider who is able to gain access to a 
facility and, say, over time bring out material or technology, 
we have already seen in Pakistan. And I know it does not help 
to raise this all the time, but the A.Q. Khan network where, of 
course, the father of the Pakistan program was working outside 
the control of the Pakistan establishment, that is, of course, 
something that is always going to be there, as well as the 
group that worked with al Qaeda and bin Laden specifically 
after September 11, 2001, that was trying to do the same thing. 
So we have already seen very scary examples of the insider 
threat.
    What exacerbates it even more--and I will close with this 
thought--is the fact that we know that nuclear materials have 
been out there, accessible for terrorists to buy on the black 
market. There have been 19 incidents of weapons-usable material 
that have been seized on the black markets in the last 15 
years. So we know that there is a problem, and in all 19 of 
those cases, to the best of my knowledge, they were not 
reported as missing from the facilities that they started at. 
So we do have a problem, and it is very important for the 
Pakistanis to simply exclude the possibility that insiders 
could take material out so terrorists can construct a nuclear 
bomb.
    Senator Carper. All right. Thanks. Mr. Schmidle, and then 
Ms. Curtis.
    Mr. Schmidle. I just want to comment on whether the 
scientists, the army, the intelligence agencies are more or 
less prone to extremism than anyone else in society. I do not 
think that is the case. I think when you look at who is 
composed of the scientists, who is composed of the army, and 
even in the case of the ISI--which is often labeled as being 
excessively Islamist. The ISI is picked from the army; the army 
is picked from the population. The population, up until very 
recently, was sympathetic to the idea of the Taliban, was 
sympathetic to the idea of them as righteous Muslims, slightly 
misguided, but at least doing what they thought was in the 
right way.
    I think that the game has changed in the past couple of 
months with the idea of the Taliban and the reality of the 
Taliban have collapsed. I also do not know to what extent there 
was ever really sympathy. I never heard common sympathy from 
common people for al Qaeda. Maybe for al Qaeda leaders as 
symbols, but not for al Qaeda tactics.
    Senator Carper. Ms. Curtis.
    Ms. Curtis. Yes, I agree with Mr. Mowatt-Larssen that the 
biggest threat is the insider threat rather than the idea that 
somehow the government or the military is overthrown by 
extremists.
    But that said, I think it is important for the military 
leadership to be clear on how much of a danger extremists are 
posing to the country. And this gets back to the point--Senator 
Burris is not here--but the fact is in the past the Taliban has 
been seen as a strategic asset for Pakistan, and so it is 
incumbent on the military leadership to explain to the public 
that ``no, these are threats to the country.''
    And we are beginning to see that General Kayani did state 
last Friday, in his speech to Staff College, to upcoming 
military officers, that while there still were external 
threats, the most immediate threat to Pakistan right now was 
internal.
    So I think these kinds of statements are extremely 
important because they do in a sense form the thinking within 
the military, which is very important.
    Senator Carper. Thank you.
    A question for Mr. Schmidle, if I could. Maybe two 
questions. First of all, how resilient or dedicated are the 
people of Pakistan to continue supporting the nation's campaign 
in South Waziristan?
    Mr. Schmidle. I think that the test case is ultimately the 
plight of the refugees. I think that the plight of the refugees 
is more important right now than any military operation and the 
government can do because the Pashtuns on either side of the 
border right now in Afghanistan and Pakistan are watching to 
see whether the Pakistani army is, (A) serious about actually 
catching the heads of the Swat-based Taliban, Maulana Fazlullah 
and his associates, and, (B) serious about bringing the people 
back to their homes, convincing them the Pakistani army may 
have messed up once, but it will not mess up again, that it is 
now there for their security.
    I think this is the most critical thing. I think that if 
the army takes its eye off the ball and now goes into South 
Waziristan, leaves these 2.5 million refugees in Swat, creates 
another couple of hundred thousand refugees in South 
Waziristan, I think the public support will begin dissipating 
very quickly.
    Senator Carper. Mr. Fick, any thoughts on that?
    Mr. Fick. I agree.
    Senator Carper. Short answer, isn't it? Right to the point. 
That is good. No, you can stop right there. I have more 
questions, so thank you.
    Again back to Mr. Schmidle, if I could. Could you just 
elaborate for us, if you will, on your recommendation that 
Pakistan refrain from launching a campaign in South Waziristan? 
You talked about this in what you just said, but help me again. 
You may have said this, but again, what alternatives would you 
offer to that?
    Mr. Schmidle. The alternatives I think are--I feel like the 
problem is overextension more than anything else. I feel like 
you fail to consolidate what has been a military success, to a 
certain degree, in Swat.
    Senator Carper. It reminds me just a little bit of our 
involvement in Afghanistan----
    Mr. Schmidle. I would agree wholeheartedly, that taking the 
eye off the ball into Iraq----
    Senator Carper [continuing]. In 2001.
    Mr. Schmidle. Definitely. But I think that it then 
complicates--I think that it also exposes the inherent 
incompatibilities of U.S. and Pakistan priorities and perhaps 
creates more short-term problems for collaboration, and right 
now there is some level of momentum, there is some level of 
support. I think that when the United States sees that the 
Pakistani army is only going after some of these Taliban 
leaders and leaving others to cross the border at ease, it then 
resuscitates some of these bilateral problems between the two 
countries.
    Senator Carper. Please, Ms. Curtis.
    Ms. Curtis. I would disagree somewhat, sir. I think that 
what you risk is if you are squeezing the Swat Valley, taking 
operations there, a lot of these people are going to be able to 
still find safe haven in South Waziristan--or North Waziristan 
for that matter.
    So I think it is important while the Pakistani public is 
supporting the military in these operations that they do carry 
the fight to South Waziristan as well. I understand the plight 
of the refugees. That has to be dealt with, but that is mainly 
an issue for the civilian government to be dealing with.
    So I have to say I see it a bit differently, and I do not 
compare it to the situation with the United States and Iraq and 
Afghanistan because I think that you would have synergy in 
terms of if the Pakistanis are squeezing the militants in South 
Waziristan, you have the coalition forces on the other side in 
Afghanistan, and then we can finally have this hammer and anvil 
strategy that we have been working toward for so long. And you 
do have the Pakistani public behind these operations in Swat 
Valley, so I would just have to disagree, and I think we should 
be encouraging them to also start squeezing the militant safe 
haven in the tribal areas as well.
    Senator Carper. Just very briefly, go ahead.
    Mr. Schmidle. I think we should not mistake what is a 
change in will on the part of the Pakistani army with what is 
not a change in capacity. The Pakistani army does not have the 
ability to take on the entire tribal belt if it is inflamed 
with Taliban insurgency, which it would be if they went into 
South Waziristan.
    Senator Carper. OK, thanks. Let me just follow up on that 
with a question of Mr. Nawaz and probably Ms. Curtis, and that 
is, your assessment, please, of the ability of Pakistan to 
adopt and integrate counterinsurgency doctrine.
    Mr. Nawaz. Senator, I think there has been some attempt, 
but it is going to take a long time. The army is still very 
much conventional and its stance is conventional, and it is 
still looking at most of these actions as low-intensity 
conflict and not as counterinsurgency. They do not have the 
equipment nor the training. And, therefore, I do not think that 
they are quite ready.
    If you look at Swat, it was really conventional use of the 
military and it is not counterinsurgency. In my own 
conversation with senior military leaders, they tell me that 
they do not have the capacity to hold Swat or Bajour or other 
parts of FATA, that they need to have civilian counterparts and 
the police force that will be there--which is why the new move 
to induct ex-servicemen into the police force is probably a 
good idea.
    Senator Carper. Good. Ms. Curtis and then maybe a former 
marine would share a thought on this. Ms. Curtis, please.
    Ms. Curtis. Well, obviously----
    Senator Carper. I do not know if you are ever a former 
marine. At least I do not think so.
    Mr. Fick. Just never an ex-Marine.
    Senator Carper. There you go.
    Ms. Curtis. Well, obviously the capability issue is an 
enormous one, and I think the United States is going to have to 
play a very large role in assisting the Pakistanis with 
counterinsurgency training, with equipment, more helicopters, 
as you specified, and then also encouraging the military to 
work with the civilian leadership to develop a comprehensive 
approach to be able to hold and build areas. And this is 
definitely going to be an uphill battle, but I think it is 
something that has to be done. We cannot really hesitate in 
following through on this.
    But it is my understanding that there has been some measure 
of resistance within the Pakistan military to receive this kind 
of training. This may be starting to change, but I think it is 
something we need to keep working toward because it will be 
absolutely critical because now that they have gone in, 
militarily, particularly the Swat Valley, they will have to 
work on a hold and build strategy. They cannot allow the 
Taliban to come back in. This would be, I think, sort of 
devastating for security in the country and the future 
stability of the rest of the country.
    Senator Carper. Mr. Fick, please.
    Mr. Fick. I would suggest that the use of heavy artillery 
is inversely correlated with effective counterinsurgency, and 
the Pakistani army right now is using a lot of heavy artillery 
in the west, which is why I am suggesting that we look at the 
police. And we should not get too wrapped up over the question 
of whether the Pakistani army can effectively conduct a 
counterinsurgency campaign. We should look at whether the 
Pakistani Government can do it. And that requires using 
different tools.
    For most people, especially in rural areas, contact with 
the police is the only contact or the most frequent contact 
they have with their government, and this is the first line of 
contact and defense for the Pakistani Government. In terms of 
training the police, we should not look to our military. Posse 
Comitatus works. Our military is not good at training police, 
so we need to find other ways to do it.
    Senator Carper. Well, we have some experience in training 
police in Iraq.
    Mr. Fick. And Afghanistan.
    Senator Carper. And now in Afghanistan.
    Mr. Fick. And we are much better at training militaries 
than we are at training police.
    If I could get back to your earlier question with regard to 
South Waziristan and suggest that you look at the work that 
then-Colonel Mick Nicholson, now Brigadier General in RC 
South----
    Senator Carper. We know him.
    Mr. Fick. The work he did in RC East when he was a brigade 
commander, effectively influencing tribes across the border in 
Waziristan, is another model. He had great success.
    Senator Carper. That is a good point. Thank you. As we come 
to the end here, we have a vote underway, and so we are going 
to excuse you very shortly.
    One of the things I like to do when we have a panel this 
diverse, and frankly this well regarded and thoughtful, one of 
the things I like to do is to ask you to say--just run down the 
list really quick, Ms. Curtis, as you listened to your other 
four colleagues here on the panel, I am sure they said some 
things you agree with, some things that you do not agree with. 
Just think back to maybe one of the points or two that you most 
agree with, that the other panelists, your colleagues, have 
suggested. Anything come to mind? There has to be one or two.
    Ms. Curtis. Well, I think that Mr. Schmidle did an 
excellent job of explaining the different Pakistani militant 
groups and clarifying a lot of those issues. So I think I agree 
with everything he said in his oral remarks. And I think he 
spelled out clearly how complex this situation is and 
demonstrated from the Pakistani viewpoint what exactly they are 
dealing with.
    And Mr. Mowatt-Larssen, I think I agree with how he 
characterized the threat of the safety and security of 
Pakistan's nuclear weapons, the dangers of hyping that threat. 
I think too often we focus on that. What I say is it is a low-
probability but high-risk scenario. I think the Pakistan 
military takes the safety and security of its nuclear weapons 
very seriously, and there is no reason to panic, but at the 
same time, obviously, it is an issue that we have to stay 
attuned to.
    Senator Carper. Great, thanks. Mr. Schmidle, among the 
comments of your colleagues, what really stands out in your 
mind that you want to reinforce with us?
    Mr. Schmidle. Mr. Fick's point about the police and about 
thinking of the Indus River as a conceptual line. I think it is 
a lot less threatening for the Pakistani Government and for the 
Pakistani military and intelligence establishment to accept 
American police trainers in the Punjab, which is a much less 
politically sensitive area to be working with police there, 
training, building up capacity in areas that have not been hit 
by the Taliban yet, but could be the next line. And I think 
that is a very good point and something that should be taken 
into consideration.
    Senator Carper. OK, thanks. Mr. Nawaz, same question, 
please.
    Mr. Nawaz. I agree with Mr. Fick's point that 
counterinsurgencies are won by police and not by the military, 
and also that the nuclear threat will always be there because 
there is no perfect security. But there are enough very serious 
minded people in the military and in the Government of Pakistan 
that are devoted to ensuring that the Nuclear Command Authority 
and the Strategic Plans Division remains active and totally 
involved.
    Senator Carper. Thank you. Mr. Fick.
    Mr. Fick. I like to look at things in terms of the most 
likely course of action and the most dangerous course of 
action. And Mr. Schmidle addresses the most likely course of 
action, one of the Pakistani army and government supporting 
some groups while fighting others; that is something I am going 
to take away.
    The most dangerous course of action here, the existential 
threat, if there is one, is nuclear. And Mr. Mowatt-Larssen's 
point about the insider threat is something that I am going to 
look more into.
    Senator Carper. Good. Thank you. Mr. Mowatt-Larssen.
    Mr. Mowatt-Larssen. Yes, Mr. Chairman, it has been 
fascinating for me just what my colleagues have discussed that 
directly pertains to the ultimate effectiveness of nuclear 
security, and that is my biggest takeaway. As that battle goes, 
particularly the battle for the control of the country and the 
hearts and minds and the antipathies towards the United States, 
lowering those reduces that insider threat.
    I also agree, actually, with the comment by Mr. Schmidle 
that there is no greater propensity for the use of nuclear 
weapons to be extremist than any other segment of society. I do 
not even know what the statistics are, but it is that the 
consequences are that much higher in that actuarial calculation 
if one or two are.
    Finally, I would have to pile on to the police equation 
from the stand point of something we have talked about as well 
on the nuclear security side? It is good to get out of 
sometimes the mentality of nuclear security as the nuclear 
security people look at that, whether that is in the 
intelligence services or in the military, and the police do 
have a role and can play a bigger role in nuclear security as 
well in Pakistan.
    Thank you.
    Senator Carper. All right. In closing, we have about 5 
minutes left to vote. I just want to say to each of you, thank 
you for the work you have done with your lives to date. Thank 
you for sharing some of what you have learned with us here this 
afternoon. I appreciate very much where you have agreed because 
it is helpful to us to reinforce the messages that you all 
reinforced here, especially in the last several minutes. My 
colleagues and I are grateful for your work, and I want to say 
to our first witness from the Administration, we very much 
appreciate that input.
    In the next couple of weeks, we are going to have the 
hearing record open for 2 weeks--for the submission of 
additional statements and questions from my colleagues. If you 
get any of those questions, I would just ask for your 
cooperation in providing prompt responses to those questions 
that might be submitted for the record.
    Again, our thanks to each of you. This has just been 
illuminating, certainly interesting, and I think very 
important. Thanks so much.
    With that, this hearing is adjourned.
    [Whereupon, at 4:58 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1790.001

[GRAPHIC] [TIFF OMITTED] T1790.002

[GRAPHIC] [TIFF OMITTED] T1790.003

[GRAPHIC] [TIFF OMITTED] T1790.004

[GRAPHIC] [TIFF OMITTED] T1790.005

[GRAPHIC] [TIFF OMITTED] T1790.006

[GRAPHIC] [TIFF OMITTED] T1790.007

[GRAPHIC] [TIFF OMITTED] T1790.008

[GRAPHIC] [TIFF OMITTED] T1790.009

[GRAPHIC] [TIFF OMITTED] T1790.010

[GRAPHIC] [TIFF OMITTED] T1790.011

[GRAPHIC] [TIFF OMITTED] T1790.012

[GRAPHIC] [TIFF OMITTED] T1790.013

[GRAPHIC] [TIFF OMITTED] T1790.014

[GRAPHIC] [TIFF OMITTED] T1790.015

[GRAPHIC] [TIFF OMITTED] T1790.016

[GRAPHIC] [TIFF OMITTED] T1790.017

[GRAPHIC] [TIFF OMITTED] T1790.018

[GRAPHIC] [TIFF OMITTED] T1790.019

[GRAPHIC] [TIFF OMITTED] T1790.020

[GRAPHIC] [TIFF OMITTED] T1790.021

[GRAPHIC] [TIFF OMITTED] T1790.022

[GRAPHIC] [TIFF OMITTED] T1790.023

[GRAPHIC] [TIFF OMITTED] T1790.024

[GRAPHIC] [TIFF OMITTED] T1790.025

[GRAPHIC] [TIFF OMITTED] T1790.026

[GRAPHIC] [TIFF OMITTED] T1790.027

[GRAPHIC] [TIFF OMITTED] T1790.028

[GRAPHIC] [TIFF OMITTED] T1790.029

[GRAPHIC] [TIFF OMITTED] T1790.030

[GRAPHIC] [TIFF OMITTED] T1790.031

[GRAPHIC] [TIFF OMITTED] T1790.032

[GRAPHIC] [TIFF OMITTED] T1790.033

[GRAPHIC] [TIFF OMITTED] T1790.034

[GRAPHIC] [TIFF OMITTED] T1790.035

[GRAPHIC] [TIFF OMITTED] T1790.036

[GRAPHIC] [TIFF OMITTED] T1790.037

[GRAPHIC] [TIFF OMITTED] T1790.038

[GRAPHIC] [TIFF OMITTED] T1790.039

[GRAPHIC] [TIFF OMITTED] T1790.040

[GRAPHIC] [TIFF OMITTED] T1790.041

[GRAPHIC] [TIFF OMITTED] T1790.042

[GRAPHIC] [TIFF OMITTED] T1790.043

[GRAPHIC] [TIFF OMITTED] T1790.044

[GRAPHIC] [TIFF OMITTED] T1790.045

[GRAPHIC] [TIFF OMITTED] T1790.046

[GRAPHIC] [TIFF OMITTED] T1790.047

[GRAPHIC] [TIFF OMITTED] T1790.048

[GRAPHIC] [TIFF OMITTED] T1790.049

[GRAPHIC] [TIFF OMITTED] T1790.050

[GRAPHIC] [TIFF OMITTED] T1790.051

[GRAPHIC] [TIFF OMITTED] T1790.052

[GRAPHIC] [TIFF OMITTED] T1790.053

[GRAPHIC] [TIFF OMITTED] T1790.054

[GRAPHIC] [TIFF OMITTED] T1790.055

[GRAPHIC] [TIFF OMITTED] T1790.056

[GRAPHIC] [TIFF OMITTED] T1790.057

[GRAPHIC] [TIFF OMITTED] T1790.058

[GRAPHIC] [TIFF OMITTED] T1790.059

[GRAPHIC] [TIFF OMITTED] T1790.060

                                 <all>

</pre></body></html>
